<html>
<title> - NATIONAL ACADEMY OF SCIENCES' REVIEW OF THE U.S. CLIMATE CHANGE SCIENCE PROGRAM STRATEGIC PLAN</title>
<body><pre>[Senate Hearing 108-860]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-860

NATIONAL ACADEMY OF SCIENCES' REVIEW OF THE U.S. CLIMATE CHANGE SCIENCE 
                         PROGRAM STRATEGIC PLAN

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                   U.S. GOVERNMENT PRINTING OFFICE
22-296 PDF                 WASHINGTON : 2006
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2003......................................     1
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................    21

                               Witnesses

Alley, Richard, Ph.D., Professor of Geosciences, Pennsylvania 
  State University...............................................     2
    Prepared statement...........................................     3
Graedel, Thomas E., Ph.D., Professor of Industrial Ecology, Yale 
  University.....................................................     9
    Prepared statement...........................................    12
Janetos, Dr. Anthony C., Director, H. John Heinz III Center for 
  Science, Economics, and the Environment........................    15
Liverman, Dr. Diana M., Director, Latin American Studies Program, 
  University of Arizona..........................................    16
Solow, Dr. Andrew, Associate Scientist and Director, Marine 
  Policy Center, Woods Hole Oceanographic Institution............    16

                                Appendix

Lautenberg, Hon. Frank, U.S. Senator from New Jersey, prepared 
  statement......................................................    24
Response to written questions submitted by Hon. Ernest F. 
  Hollings to Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. 
  Diana M. Liverman, Dr. Andrew Solow, and Dr. Richard Alley.....    34
Response to Written Questions Submitted by Hon. John F. Kerry to 
  Dr. Richard Alley and Dr. Anthony C. Janetos...................    36
Response to written questions submitted by Hon. John McCain to 
  Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. Diana M. 
  Liverman, Dr. Andrew Solow, and Dr. Richard Alley..............    24
Response to written questions submitted by Hon. Olympia J. Snowe 
  to Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. Diana M. 
  Liverman, Dr. Andrew Solow, and Dr. Richard Alley..............    30
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    23

 
NATIONAL ACADEMY OF SCIENCES' REVIEW OF THE U.S. CLIMATE CHANGE SCIENCE 
                         PROGRAM STRATEGIC PLAN

                              ----------                              


                         WEDNESDAY, MAY 7, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. It is reported that greenhouse gases are 
accumulating in the earth's atmosphere as a result of human 
activities, causing surface air temperatures and subsurface 
ocean temperatures to rise. Temperatures are, in fact, rising.
    The changes observed over the last several decades are 
likely mostly due to human activities, but we would not rule 
out that some significant part of these changes is also a 
reflection of natural variability. Clearly, it is time for the 
Nation to demonstrate real leadership and make some notable 
progress on this critical issue.
    Earlier this year Senator Lieberman and I introduced S. 
139, the Climate Stewardship Act of 2003, which would establish 
a mandatory carbon dioxide reduction program, along with an 
emission trading system. A market-based approach offers the 
best chance for the Nation to respond to a growing global 
environmental threat.
    We requested the Energy Information Administration to 
conduct an analysis of our climate change proposal. When the 
results are available, we will review and make appropriate 
changes and the latest inclusions on the emission levels and 
their associated costs.
    Yesterday the Senate began considering the energy 
legislation that if enacted, is expected to have an enormous 
impact on the Nation's future. However, I do not believe any 
energy legislation can be truly meaningful unless it seeks to 
address climate change. Therefore, it is my intention to offer 
a modified version of the Climate Stewardship Act as an 
amendment during the Senate's deliberations on the energy 
legislation.
    I suspect part of the amendment will be the beginning of a 
long congressional battle to bring about meaningful climate 
change policy.
    Today's hearing is a continuation of the Committee's 
ongoing consideration of climate change issues. Earlier this 
year we heard testimony from the Administration concerning its 
draft strategy plan for the U.S. Climate Change Science 
Program. Since that hearing, the National Academy of Sciences, 
at the request of the Administration, completed its review of 
the plan, which will be the main topic during this hearing.
    Also, we will consider the Academy's review of abrupt 
climate change. Abrupt climate change has been defined as 
taking place so rapidly and unexpectedly that human or natural 
systems have difficulty adapting to it.
    The Academy's review also requested by the Administration, 
highlights the uncertainty associated with abrupt climate 
change. This is an interesting area of concern, because so many 
have concluded that the response to the climate systems of the 
increased levels of carbon dioxide is linear, therefore 
affording the world plenty of time to respond to it.
    I look forward to a frank discussion of the logic behind 
such assumptions. I welcome our witnesses here today and look 
forward to their testimony.
    Our witnesses today are Dr. Richard Alley, Professor of 
Geosciences, Pennsylvania State University, Earth System 
Science Center, at University Park, Pennsylvania; Dr. Thomas E. 
Graedel, Professor of Industrial Ecology at Yale University; 
Dr. Anthony C. Janetos, Director of the H. John Heinz Center 
for Science, Economics, and the Environment; Dr. Diana M. 
Liverman, Director of Latin American Studies Program, 
University of Arizona; and Dr. Andrew Solow, Associate 
Scientist and Director of the Marine Policy Center, Woods Hole 
Oceanographic Institute.
    Dr. Alley, we will begin with you. Thank you. I understand 
that maybe there is one statement for all, or does each choose 
to make a statement?

  STATEMENT OF RICHARD ALLEY Ph.D., PROFESSOR OF GEOSCIENCES, 
                 PENNSYLVANIA STATE UNIVERSITY

    Dr. Alley. Two statements, and then additional words.
    I thank you for the opportunity to testify. I was chair of 
the committee at the National Academy of Sciences that released 
the report, Abrupt Climate Change: Inevitable Surprises.
    I am also teaching my elder daughter to drive right now. 
She spends most of her time trying to keep the car between the 
lines, left turns and parking, and things she must deal with 
every day. In addition, she is worried about issues such as, 
what happens if a drunk driver comes across the center line, 
things that are possible, things that could happen but may not 
happen, but would be so important that she should know about 
them.
    In exactly the same way, Professor Graedel will be 
discussing issues that are highly likely, and we will have to 
deal with these issues. The report from our committee was 
looking at things that have happened, that are possible, but 
that may not happen in my lifetime, or in my daughter's 
lifetime, but that will be so important that the committee 
believes that it would be useful for our society to understand 
them.
    The records of climate change are very clear. The climate 
acts as if it is controlled by a dial. You change the carbon 
dioxide a little bit, you change the sun a little bit, and the 
climate changes a little in a reasonably predictable way. 
Occasionally at various times in history, the climate acted as 
if it were controlled by a switch. A small pressure does not do 
anything; a slightly larger pressure and the climate jumps into 
a new state.
    These changes have been very large locally, as much as 10 
to 20 degrees Fahrenheit. They have occurred very rapidly over 
a couple of years or fewer. They have affected regions of 
continents scaled to the whole world. And they have been very 
persistent once the climate gets into a new state, once the 
switch is flipped. It may remain that way for decades or 
centuries.
    It is clear from what we see that the big changes have 
occurred when the climate was being forced to change by slower 
processes, and so that at least raises the possibility that 
humans are increasing the likelihood of an abrupt climate 
change, not because there is anything inherently wrong with 
humans, but simply because we are pushing the climate system to 
change.
    The research program that is examined by the committee that 
I chaired in many ways overlaps that research program that 
Professor Graedel will be discussing. It is distinct from it in 
certain ways, it includes a look at natural as well as human 
causes of climate change. It includes focus on looking for the 
switches in the climate system, the ones that would affect 
drought and its persistence in the grain belts, and the 
possibility of droughts much bigger than the dust bowl, the 
ones that would affect the stability of the Gulf Stream and its 
effect on climate. There is a focus on snow and ice, their 
changes. And there is also a focus on the history of climate, 
and something which has occurred must be possible.
    The committee also noted that while it is highly likely 
that we can say much better what is possible. What is likely, 
we cannot put forward from the research community something 
that is useful to policymakers. Predicting a switch is always 
difficult, when exactly will it flip, and so some uncertainty 
for climate change will persist.
    For that reason, the committee recommended research into 
possible ways to increase the bendability of society. Our 
history shows that when challenged by climate change or other 
factors, some societies have bent and others have broken. And 
the committee believes that bendability would be a good thing.
    There is more detail in my written testimony and in the 
report that we issued, and after the other statements I would 
be most happy to answer questions.
    [The prepared statement of Dr. Alley follows:]

 Prepared Statement of Richard Alley, Ph.D., Professor of Geosciences, 
                     Pennsylvania State University
    Good morning. Thank you very much for this opportunity to testify. 
I am Richard Alley, a professor of geosciences at the Pennsylvania 
State University, and I served as chair of a recent committee of the 
National Academies that produced the report, ``Abrupt Climate Change: 
Inevitable Surprises.'' Most of the other testimony this morning 
focuses on climate change in the broad sense and how we as a nation can 
improve our understanding of change and our resiliency in responding to 
its impacts. My role is to focus on a piece of this puzzle: Abrupt 
climate change.
What is Abrupt Climate Change?
    Just what do I mean by abrupt climate change? If you read the 
evidence hidden in ice cores and other records of what the climate was 
in the past, you will learn that the Earth has at times undergone 
large, abrupt, widespread and persistent changes in climate (see Figure 
1, page 4). I'm talking about a change of as much as 10 +C during just 
10 years in some places, to a new climate state that persisted for 
centuries. For example, roughly half the north Atlantic warming since 
the last ice age was achieved in only a decade, and it was accompanied 
by significant climatic changes across most of the globe. Paleo-records 
show that local warmings as large as 16 +C occurred repeatedly during 
the slide into and climb out of the last ice age. Think about what that 
kind of change might mean to farmers. Or to water managers. Evidence 
suggests that abrupt climate changes are not only possible but may be 
likely in the future, and regardless of timing such changes would bring 
large impacts on ecosystems and societies.
    Our report, which was published in 2002, was an attempt to describe 
what is known about abrupt climate changes and their impacts, based on 
paleoclimate proxies, historical observations, and modeling. The report 
does not focus on large, abrupt causes--nuclear wars or giant meteorite 
impacts--but rather on the surprising new findings that abrupt climate 
change can occur when gradual causes push the earth system across a 
threshold. Just as the slowly increasing pressure of a finger 
eventually flips a switch and turns on a light, the slow effects of 
drifting continents or wobbling orbits or changing atmospheric 
composition may ``switch'' the climate to a new state. And, just as a 
moving hand is more likely than a stationary one to encounter and flip 
a switch, faster earth-system changes--whether natural or human-
caused--are likely to increase the probability of encountering a 
threshold that triggers a still-faster climate shift.
Can We Predict Abrupt Climate Change?
    We do not yet understand abrupt climate changes well enough to 
predict them. The models used to project future climate changes and 
their impacts are not especially good at simulating the size, speed, 
and extent of the past changes, casting uncertainties on assessments of 
potential future changes. Thus, it is likely that climate surprises 
await us.
    When orbital wiggles and rising greenhouse gases warmed the earth 
from the last ice age, proxy records show that smooth changes were 
interspersed with abrupt coolings and warmings, wettings and dryings. 
By analogy, the expected future warming may come smoothly, but may come 
with jumps, short-lived or local coolings, floods or droughts, and 
other unexpected changes. Societies and ecosystems have an easier time 
dealing with slower or better-anticipated changes, so the abruptness 
and unpredictability of the possible changes may be disquieting.
    Abrupt climate changes were especially common when the climate 
system was being forced to change most rapidly. Thus, greenhouse 
warming and other human alterations of the earth system may increase 
the possibility of large, abrupt, and unwelcome regional or global 
climatic events.
    Our committee, which was composed of 11 of the most knowledgeable 
experts and which benefited from input from dozens of other scientists 
who participated in our workshops, considered patterns, magnitudes, 
mechanisms, and impacts of abrupt climate changes, possible 
implications for the future, and critical knowledge gaps. The 
potentially large impacts and prediction difficulties pose special 
challenges--how can we increase the adaptability and resiliency of 
societies and ecosystems?
What Can Society do to Prepare for Abrupt Climate Change?
    There is no need to be fatalistic about the threats posed by abrupt 
climate change. Societies have faced both gradual and abrupt climate 
changes for millennia and have learned to adapt through various 
mechanisms, such as moving indoors, developing irrigation for crops, 
and migrating away from inhospitable regions. Nevertheless, because 
climate change will likely continue in the coming decades, denying the 
likelihood or downplaying the relevance of past abrupt events could be 
costly. Societies can take steps to face the potential for abrupt 
climate change. The committee believes that increased knowledge is the 
best way to improve the effectiveness of response, and thus that 
research into the causes, patterns, and likelihood of abrupt climate 
change can help reduce vulnerabilities and increase our adaptive 
capabilities. The committee's report provides detailed recommendations 
in two broad categories:

        (1) targeted research necessary to expand instrumental and 
        paleoclimatic observations, and

        (2) modeling and associated analysis needed to understand 
        abrupt climate change and its potential ecological, economic, 
        and social impacts.

    The charge to the committee asked us to think about what kinds of 
research are necessary to improve our understanding of abrupt climate 
change, so we give a lot of attention to research needs. A few of the 
most important areas are:

  <bullet> Understanding abrupt climate change and its potential 
        impacts requires that we study both human impacts on climate 
        and also natural causes of climate change;

  <bullet> Abrupt climate changes of the past especially involved 
        shifts in ocean circulation, in land-surface processes 
        affecting drought, in snow and ice, and in the preferred 
        patterns of the climate system such as El Nino, so these topics 
        are prominent in the committee's recommendations.

  <bullet> Climate histories from ice and sediment cores, tree rings 
        and more have been very important in the study of abrupt 
        climate changes--events that actually occurred must be 
        possible--so continued study of the history of climate remains 
        important.

    The committee emphasized the opportunity for research to identify 
``no regrets'' measures to reduce vulnerabilities and increase adaptive 
capacity at little or no cost. Climate histories show that change is 
almost certain, and that abrupt and surprising changes are likely in at 
least some regions. Many current policies and practices are likely to 
be inadequate in a world of rapid and unforeseen climatic changes. 
Identifying ways to improve these policies will be beneficial even if 
abrupt climate change turns out to fit a best-case, rather than a 
worst-case, scenario. Societies will have ``no regrets'' about the new 
policies, because they will be good policies regardless of the 
magnitude of environmental change. For example, the phase-out of 
chloroflourocarbons and replacement by gases with shorter atmospheric 
lifetimes have reduced the U.S. contribution to global warming while at 
the same time reducing future health risks posed by ozone. History 
shows that in response to climatic challenges, some groups have 
``broken'' while others have ``bent'', so the committee deemed it wise 
to study ways to promote ``bendability''.
    Thank you for this opportunity to talk about abrupt climate change 
so you can consider this as you think about the new Climate Change 
Strategic Plan. More details from our report appear in my written 
testimony and I'd be happy to answer questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Recommendations From the Report, ``Abrupt Climate Change: Inevitable 
                              Surprises''
Improve The Fundamental Knowledge Base Related To Abrupt Climate Change
    Recommendation 1. Research programs should be initiated to collect 
data to improve understanding of thresholds and nonlinearities in 
geophysical, ecological, and economic systems. Geophysical efforts 
should focus especially on modes of coupled atmosphere-ocean behavior, 
oceanic deepwater processes, hydrology, and ice. Economic and 
ecological research should focus on understanding nonmarket and 
environmental issues, initiation of a comprehensive land-use census, 
and development of integrated economic and ecological data sets. These 
data will enhance understanding of abrupt climate change impacts and 
will aid development of adaptation strategies.
    Physical, ecological, and human systems are imperfectly understood, 
complex, nonlinear, and dynamic. Current changes in climate are 
producing conditions in these systems that are outside the range of 
recent historical experience and observation, and it is unclear how the 
systems will interact with and react to the coming climatic changes. 
Our ability to adapt to or mitigate the effects of climate change will 
be improved if we can recognize climate-related changes quickly. This 
will require improved monitoring of climatic, ecological, and 
socioeconomic systems. Many of the needed data sets overlap with those 
used to study gradual climate change.
    To increase understanding of abrupt climate change, research should 
be directed toward aspects of the climate system that are believed to 
have participated in past abrupt changes or that are likely to exhibit 
abrupt and persistent changes when thresholds in the climate system are 
crossed. Key research areas for increasing our understanding of abrupt 
climate change include:

  <bullet> oceanic circulation, especially related to deepwater 
        formation;

  <bullet> sea-ice transport and processes, particularly where they 
        interact with deepwater formation;

  <bullet> land-ice behavior, including conditions beneath ice sheets;

  <bullet> the hydrological cycle, including storage, runoff, and 
        permafrost changes; and

  <bullet> modes of atmospheric behavior and how they change over time.

    In the ecological and human sphere, data collection should target 
sectors where the impacts of abrupt climate change are likely to be 
largest or where knowledge of ongoing changes will be especially useful 
in understanding impacts and developing response alternatives. Data 
collection should include a comprehensive land-use census that monitors 
fragmentation of ecosystems, tracking of wildlife diseases, and 
conditions related to forest fires, as well as improved seasonal and 
long-term climate forecasts, and sustained study of oceanic regimes of 
intense biological activity, particularly near the coasts. In the 
social arena, priority should be given to development of environmental 
and nonmarket accounts, and analyses of possible threshold crossings.
Improve Modeling Focused On Abrupt Climate Change
    Recommendation 2. New modeling efforts that integrate geophysical, 
ecological, and social-science analyses should be developed to focus on 
investigating abrupt climate changes. In addition, new mechanisms that 
can cause abrupt climate change should be investigated, especially 
those operating during warm climatic intervals. Understanding of such 
mechanisms should be improved by developing and applying a hierarchy of 
models, from theory and conceptual models through models of 
intermediate complexity, to high-resolution models of components of the 
climate system, to fully coupled earth-system models. Model-data 
comparisons should be enhanced by improving the ability of models to 
simulate changes in quantities such as isotopic ratios that record past 
climatic conditions. Modeling should be used to generate scenarios of 
abrupt climate change with high spatial and temporal resolution for 
assessing impacts and testing possible adaptations. Enhanced, dedicated 
computational resources will be required for such modeling.
    Developing theoretical and empirical models to understand abrupt 
climate changes and the interaction of such changes with ecological and 
economic systems is a high priority. Modeling is essential for 
collaborative research between physical, ecological, and social 
scientists, and much more effort is needed to develop accurate models 
that produce a useful understanding of abrupt climate processes. Model 
analyses help to focus research on possible causes of abrupt climate 
change, such as human activities; on key areas where climatic 
thresholds might be crossed; and on fundamental uncertainties in 
climate-system dynamics. To date, most analyses have considered only 
gradual climate change; given the accumulating evidence of past abrupt 
climate change and of its capacity to affect human societies, more 
attention should be focused on scenarios involving abrupt change.
    Climate models that are used to test leading hypotheses for abrupt 
climate change, such as altered deep-ocean circulation, can only 
partially simulate the size, speed, and extent of the large climatic 
changes that have occurred. The failure to explain the climate record 
fully suggests either that the proposed mechanisms being used to drive 
these models are incomplete or that the models are not as sensitive to 
abrupt climate change as is the natural environment. It is also of 
concern that existing models do not accurately simulate warm climates 
of the past.
    A comprehensive modeling strategy designed to address abrupt 
climate change should include vigorous use of a hierarchy of models, 
from theory and conceptual models through models of intermediate 
complexity, to high-resolution models of components of the climate 
system, to fully coupled earth-system models. The simpler models are 
well suited for use in developing new hypotheses for abrupt climate 
change and should focus on warmer climate, because warming is likely. 
Because reorganizations of the thermohaline circulation have never been 
demonstrated in climate models employing high-resolution ocean 
components, improving the spatial resolution in climate models assumes 
high priority. Complex models should be used to produce geographically 
resolved (to about 1+ of latitude by 1+ of longitude), short-time 
(annual or seasonal) sensitivity experiments and scenarios of possible 
abrupt climatic changes.
    Long integrations of fully coupled models under various forcings 
for the past, present, and future are needed to evaluate the models, 
assess possibilities of future abrupt changes, and provide scenarios of 
those future changes. The scenarios can be combined with integrated-
assessment economic models to improve understanding of the costs for 
alternative adaptive approaches to climate change with attention to the 
effects of rising greenhouse-gas concentrations and nonclimatic 
factors, such as land use changes and urbanization. Model-data 
comparisons are needed to assess the quality of model predictions. It 
is important to note that the multiple long integrations of enhanced, 
fully coupled earth-system models required for this research are not 
possible with the computer resources available today, and thus these 
resources should be enhanced.
Improve Paleoclimatic Data Related To Abrupt Climate Change
    Recommendation 3. The quantity of paleoclimatic data on abrupt 
change and ecological responses should be enhanced, with special 
emphasis on:

  <bullet> Selected coordinated projects to produce especially robust, 
        multi-parameter, high-resolution histories of climate change 
        and ecological response.

  <bullet> Better geographic coverage and higher temporal resolution.

  <bullet> Additional proxies, including those that focus on water 
        (e.g., droughts, floods, etc.).

  <bullet> Multidisciplinary studies of selected abrupt climate 
        changes.

    The current scientific emphasis on abrupt climate change was 
motivated by strong evidence in proxy records that showed extreme 
climatic changes in the past, sometimes occurring within periods of 
fewer than 10 years. Paleoclimatic records provide important 
information related to changes in many environmental variables. 
However, not all proxy archives provide equally high confidence for 
estimating past climatic conditions, such as temperature and 
precipitation, and for determining when and how rapidly changes 
occurred.
    Confidence can be improved by encouraging coordinated, multi-
parameter, multi-investigator study of selected archives that have 
seasonal to decadal time accuracy and resolution, substantial 
duplication of measurements to demonstrate reproducibility, and 
extensive calibration of the relation between climate and sedimentary 
characteristics. As one example, in the ice-core projects from central 
Greenland, duplication of the measurements by independent, 
international teams provides exceptional confidence in most data and 
reveals which datasets do not warrant confidence. Sampling at very high 
time resolution to produce datasets complementary to those of other 
investigators gives an exceptionally clear picture of past climate. 
Such projects require more funding and effort than are typical of 
paleoclimatic research, but they provide an essential reference 
standard of abrupt climate change to which other records can be 
compared. A difficulty is that this reference standard is from one 
place in high northern latitudes and is inappropriate for study of much 
of the climate system.
    Not all paleoclimatic records can be studied in the same detail as 
those from Greenland, but generation of at least a few similar highly 
resolved (preferably annually or subannually) reference standards 
including a North Atlantic marine record comparable with Greenland 
records, would be of great value. The ultimate goal is to develop a 
global network of records with at least decadal resolution. Terrestrial 
and marine records of climate change and ecological response from the 
regions of the western Pacific warm pool (the warmest part of the 
global climate system) and the Southern Ocean and Antarctic continent 
(the southern cold pole of the climate system) are among the most 
critical targets for future paleoclimate research, including generation 
of reference standards.
    Abrupt climate change is likely to influence water availability and 
therefore is of great concern for economic and ecological systems. 
Focus on measures of precipitation, evaporation, and the quantitative 
difference between them is particularly important. Freshwater balance 
is also important in controlling water density and thus the 
thermohaline circulation of the oceans; reconstructions of water-mass 
density in polar and subpolar regions are central. New methods for 
investigating past changes in the hydrological cycle are important, as 
are additional studies of the relation between a range of climatic 
changes and the signals they leave in sedimentary archives.
    Global maps of past climates, with high resolution in time and 
space and spanning long intervals, would be of great use to the climate 
community. However, such maps are unlikely to be available soon. The 
traditional alternative of reconstructing climate for selected moments, 
or ``time-slices,'' fails to capture the short-lived anomalies of 
abrupt climate changes. Instead, mapping efforts are needed and should 
focus on the patterns of selected abrupt climatic changes in time and 
space and on their resulting effects. Additional emphasis on annually 
resolved records of the last 2000 years will help to place the warming 
and associated changes of the last 100 years in context.
Improve Statistical Approaches
    Recommendation 4. Current practices in the development and use of 
statistics related to climate and climate-related variables generally 
assume a simple, unchanging distribution of outcomes. This assumption 
leads to serious underestimation of the likelihood of extreme events. 
The conceptual basis and the application of climatic statistics should 
be re-examined with an eye to providing realistic estimates of the 
likelihood of extreme events.
    Many societal decisions are based on assumptions about the 
distribution of extreme weather-related events. Large capital projects, 
for instance, often have embedded safety margins that are derived from 
data and assumptions about the frequency distribution of extreme 
events. Many major decisions are based on statistical calculations that 
are appropriate for stationary climates, such as in the use of ``30-
year normals,'' for deriving climate data for individual locations.
    On the whole, those assumptions are reasonable, if imperfect, rules 
of thumb to use when the variability of weather is small and climate is 
stationary. If climate follows normal distributions with known and 
constant means and standard deviations, businesses and governments can 
use current practices. However, in light of recent findings related to 
nonstationary and often highly skewed climate-related variables, 
current practices can be misleading and result in costly errors.
    The potential for abrupt climate change and the existence of 
thresholds for its effects require revisions of our statistical 
estimates and practices.
Investigate ``No-Regrets'' Strategies To Reduce Vulnerability
    Recommendation 5. Research should be undertaken to identify ``no-
regrets'' measures to reduce vulnerabilities and increase adaptive 
capacity at little or no cost. No-regrets measures may include low-cost 
steps to: slow climate change; improve climate forecasting; slow 
biodiversity loss; improve water, land, and air quality; and develop 
institutions that are more robust to major disruptions. Technological 
changes may increase the adaptability and resiliency of market and 
ecological systems faced by the prospect of damaging abrupt climate 
change. Research is particularly needed to assist poor countries, which 
lack both scientific resources and economic infrastructure to reduce 
their vulnerabilities to potential abrupt climate changes.
    Social and ecological systems have long dealt with climate 
variability by taking steps to reduce vulnerability to its effects. The 
rapidity of abrupt climate change makes adaptation more difficult. By 
moving research and policy in directions that will increase the 
adaptability of economic and ecological systems, it might be possible 
to reduce vulnerability and increase adaptation at little or no cost. 
Many current policies and practices are likely to be inadequate in a 
world of rapid and unforeseen climatic changes. Improving these 
policies will be beneficial even if abrupt climate change turns out to 
fit a best-case, rather than a worst-case, scenario. Societies will 
have ``no regrets'' about the new policies, because they will be good 
policies regardless of the magnitude of environmental change. For 
example, the phaseout of chloroflourocarbons and replacement by gases 
with shorter atmospheric lifetimes have reduced the U.S. contribution 
to global warming while at the same time reducing future health risks 
posed by ozone depletion.
    In land-use and coastal planning, managers should consider the 
effects on ecosystem services that could result from interaction of 
abrupt climate changes with changes caused by people. Scientists and 
government organizations at various levels may be used to develop and 
implement regulations and policies that reduce environmental 
degradation of water, air, and biota. Conservation measures related to 
land and watersheds might be put into place to reduce the rate of 
biotic invasions, with management strategies used to limit the spread 
of invasions. The potential economic and ecological costs of disease 
emerging from abrupt climate change should be assessed.
    A promising option is to improve institutions to allow societies to 
withstand the greater risks associated with abrupt changes in climate. 
For example, water systems are likely to be stressed by abrupt climate 
change; to manage scarce water, it might prove beneficial to seek more 
flexible ways to allocate water, such as through use of water markets. 
Another example of a ``no-regrets'' strategy is insurance against the 
financial impacts of fires, floods, storms, and hurricanes. Through the 
development of new instruments, such as weather derivatives and 
catastrophe bonds, markets might better accommodate extreme events such 
as the effects of abrupt climate change. It will be important to 
investigate the development of better instruments to spread large 
losses that result from extreme events, priced realistically to reflect 
the risks but not to encourage excessive risk taking.
    Because of the strength of existing infrastructure and 
institutions, the United States and other wealthy nations are likely to 
cope with the effects of abrupt climate change more easily than poorer 
countries. That does not mean that developed countries can remain 
isolated from the rest of the world, however. With growing 
globalization, adverse impacts--although likely to vary from region to 
region because exposure and sensitivity will vary--are likely to spill 
across national boundaries, through human and biotic migration, 
economic shocks, and political aftershocks. Thus, even though this 
report focuses primarily on the United States, the issues are global 
and it will be important to give attention to the issues faced by 
poorer countries that are likely to be especially vulnerable to the 
social and economic impacts of abrupt climate change.
    The United States is uniquely positioned to provide both scientific 
and financial leadership, and to work collaboratively with scientists 
around the world, to gain better understanding of the global impacts of 
abrupt climate change as well as reducing the vulnerability and 
increasing the adaptation in countries that are particularly vulnerable 
to these changes. Many of the recommendations in this report, although 
currently aimed at U.S. institutions, would apply throughout the world.

    The Chairman. Thank you, Dr. Alley. Dr. Graedel.

STATEMENT OF THOMAS E. GRAEDEL, Ph.D., PROFESSOR OF INDUSTRIAL 
                    ECOLOGY, YALE UNIVERSITY

    Dr. Graedel. Thank you, Mr. Chairman. As you mentioned, I 
am a professor of industrial ecology at Yale University, but I 
am here because I served as the chairman of the National 
Research Council Committee to Review the U.S. Climate Change 
Science Program strategic plan.
    I appreciate the opportunity to appear before you today to 
discuss our recent report in which we reviewed the draft 
strategic plan, and to share this panel with three members of 
the committee who wrote the report, Doctors Janetos, Liverman 
and Solow.
    U.S. Climate Change Science Program, or CCSP, was formed in 
2002 to coordinate and direct the U.S. efforts in climate 
change and global change research. It builds upon the decades-
old global change research program and adds a new complement, 
climate change research initiative, whose primary goal is to 
measure the improving aggregation of scientific knowledge, 
including measures of uncertainty, into effective decision 
support systems and resources. Thus, the overall activity 
combines an existing program, the Climate Change Research 
Program, with a new component, the Climate Change Research 
Initiative.
    On September 17th of last year, Assistant Secretary of 
Commerce for Oceans and Atmosphere James Mahoney requested that 
the National Academies undertake a fast-track review of the 
U.S. Climate Change Science Program's draft strategic plan and 
of its revision. Our committee's first report in which the 
draft plan was reviewed was released last February 25th. My 
remaining comments reflect the findings and recommendations 
presented in that report.
    The committee commends the CCSP for undertaking the task of 
developing a strategic plan. The current draft of the plan 
represents a good start for the process, particularly in that 
it identifies exciting new directions for the program while 
building on the well-established foundation of the Global 
Change Research Program. Indeed, the draft strategic plan 
identifies many of the cutting-edge scientific research 
activities that are necessary to improve understanding of the 
earth system.
    The Climate Change Research Initiative portion of the plan 
introduces an admirable emphasis on the need for science to 
address shorter-term national needs, including support for 
those in the public and private sectors whose decisions are 
affected by climate change and variability.
    What recommendations do we make for improving the draft 
strategic plan? First, we recommend revisions that would 
clarify its vision and goals. The committee finds that the 
draft strategic plan lacks the kind of clear and consistent 
guiding framework that would enable decisionmakers, the public 
and scientists to clearly understand what this research program 
is intended to accomplish and how it will contribute to meeting 
the Nation's needs.
    We recommend that the revised strategic plan articulate a 
clear, concise, ambitious vision statement, and translate this 
vision into a set of tangible goals and apply an explicit 
process to establish priorities.
    Second, we recommend that the CCSP improve the treatment of 
program management in the draft plan. The management of a 
program involving 13 agencies, each with a separate mission and 
a long history of independent research on climate and global 
changes, is a challenging task. However, the creation of a 
cabinet level committee with the authority to shift resources 
among agencies to meet the goals of the program is an 
improvement over past approaches. Nonetheless, the interagency 
approach to managing the program may not be enough to ensure 
that the agencies cooperate toward the common goals of the 
program, because no individual is clearly identified in the 
draft plan as having the responsibility for managing the plan 
as a whole. The committee recommends that the revised strategic 
plan describe the management process to be used to foster 
agency cooperation toward common program goals. In particular, 
the responsibilities of CCSP leadership and relevant agencies 
should be clearly outlined.
    In parallel with the CCSP, the President announced a 
Climate Change Technology Program created to develop and 
coordinate technologies for stabilizing and reducing greenhouse 
gas levels in the atmosphere. The committee is concerned that 
the existing management and program links between the Climate 
Chance Science Program and the Climate Change Technology 
Program may not be extensive enough to take advantage of the 
synergies between those two programs. We thus recommend that 
the revised plan clearly describe the mechanisms for 
coordinating and linking science and technology development 
activities.
    Third, we recommend that the revised strategic plan better 
support the increase in understanding the potential impacts of 
climate change on human society's ecosystems and related 
options for adaptation and mitigation. The need for research 
applications in these areas logically follows from the CCSP's 
new evidence from its issued report. The draft plan's approach 
to these human decision issues lacks research into consumption, 
institutions, and social aspects of technology, and on the 
costs and benefits of climate change and related response 
options, and its treatment of ecosystems needs a more cohesive 
and strategic organizational framework.
    Fourth, we recommend strengthening decision support in the 
revised plan. Although the plan does incorporate in general 
language about decision support in many places, it is vague 
about what this will actually mean. We recommend that the 
revised plan identify which categories of decisionmakers the 
program serves and describe how the program will improve two-
way communications with them. It should also better describe 
how decisions or capabilities will be developed.
    The draft plan identifies the reduction of uncertainty as a 
top priority for the Climate Change Science Program. 
Unfortunately, it does not apply a systematic process for 
identifying the key scientific uncertainties and to ascertain 
which of those are most important in decisionmaking. And we 
recommend that the revised plan identify what sources and 
magnitudes of reduction of climate change uncertainties are 
especially needed to benefit decisionmaking.
    Last, we recommend that revisions be made to the draft 
strategic plan to better set the stage for implementation. It 
is clear that the scope of activities that are described is 
greatly enlarged over what has been supported in the past. 
Implementing this expanded suite of activities will require 
significant investments in global observing systems, computing 
capabilities, and human resources. This will necessitate either 
greatly increased funding for the Climate Change Science 
Program or a major reprioritization and cutback in existing 
programs. Even if program funding increases, CCSP management 
will continue to be faced with many funding decisions. To 
assist in this process, we recommend that the Climate Change 
Science Program use the clear goals and program priorities that 
it will present in the revised plan, as well as advice from an 
independent advisory body to guide future funding decisions.
    To conclude, the committee finds that the draft plan 
addresses crucial issues facing our Nation and the world in the 
21st century. We wish CCSP leadership well as it takes on the 
challenging task of revising the draft strategic plan to 
enhance the usefulness of the program to the decisionmakers, 
who need to better understand the potential impacts of climate 
change, and make choices among the possible responses.
    Thank you, Mr. Chairman, and we will be happy to respond to 
questions.
    [The prepared statement of Dr. Graedel follows:]

Prepared Statement of Thomas E. Graedel, Ph.D., Professor of Industrial 
                        Ecology, Yale University
    Good morning, Mr. Chairman, Senator Hollings, and Members of the 
Committee:
    My name is Thomas Graedel. I am professor of industrial engineering 
at Yale University and serve as chairman of the Committee to Review the 
U.S. Climate Change Science Program Strategic Plan of the National 
Research Council. The Research Council is the operating arm of the 
National Academy of Sciences, National Academy of Engineering, and the 
Institute of Medicine, chartered by Congress in 1863 to advise the 
government on matters of science and technology. I appreciate the 
opportunity to appear before the Committee today to discuss a recent 
report of the National Research Council entitled Planning Climate and 
Global Change Research: A Review of the Draft U.S. Climate Change 
Science Program Strategic Plan. I am pleased to share this panel with 
three members of the committee who wrote this report: Tony Janetos from 
the H. John Heinz III Center for Science, Economics, and the 
Environment; Diana Liverman from the University of Arizona; and Andrew 
Solow from the Woods Hole Oceanographic Institute.
    Research to understand how the climate system might be changing, 
and in turn affecting other natural systems and human society, has been 
underway for more than a decade. Significant advancement in 
understanding has resulted from this research, but there are still many 
unanswered questions, necessitating a continuance of this effort. The 
U.S. Climate Change Science Program, or CCSP, was formed in 2002 to 
coordinate and direct U.S. efforts in climate change and global change 
research. The CCSP builds upon the decade-old U.S. Global Change 
Research Program. Since its inception the Global Change Research 
Program, or GCRP, has reported hundreds of scientific accomplishments 
and, together with other major international partners and programs, has 
been responsible for improving the understanding of climate change and 
associated global changes. The CCSP incorporates the GCRP and adds a 
new component--the Climate Change Research Initiative, or CCRI--whose 
primary goal is to ``measurably improve the integration of scientific 
knowledge, including measures of uncertainty, into effective decision 
support systems and resources.'' Thus, this overall activity combines 
an existing program, the Global Change Research Program, with a new 
component, the Climate Change Research Initiative.
    On September 17, 2002, Assistant Secretary of Commerce for Oceans 
and Atmosphere James R. Mahoney requested that the National Academies 
undertake a fast-track review of the U.S. Climate Change Science 
Program's draft strategic plan for climate and global change studies. 
He asked the National Academies to form a committee to review both the 
discussion draft of the strategic plan, which was released on November 
11, 2002, and the final strategic plan after it has been revised. In 
response the 17-member Committee to Review the U.S. Climate Change 
Science Program Strategic Plan was formed. The committee's first 
report, in which the draft strategic plan is reviewed, was released on 
February 25, 2003. My remaining comments reflect the findings and 
recommendations presented in this report.
    The committee commends the CCSP for undertaking the challenging 
task of developing a strategic plan. The current draft of the plan 
represents a good start to the process, particularly in that it 
identifies some exciting new directions for the program while building 
on the well-established foundation of the Global Change Research 
Program. The committee finds that the draft strategic plan identifies 
many of the cutting-edge scientific research activities that are 
necessary to improve understanding of the Earth system. The Climate 
Change Research Initiative portion of the plan introduces an admirable 
emphasis on the need for science to address national needs, including 
support for those in the public and private sectors whose decisions are 
affected by climate change and variability. Further, the CCSP has made 
genuine overtures to researchers and the broader stakeholder community 
to gain feedback on the draft strategic plan and how to improve it. 
These efforts indicate a strong interest on the part of the CCSP in 
developing a plan that is consistent with current scientific thinking 
and is responsive to the nation's needs for information on climate and 
associated global changes.
    In general, the draft strategic plan provides a solid foundation 
for the Climate Change Science Program. With suitable revisions, the 
plan could articulate an explicit and forward-looking vision for the 
CCSP and clearly identifiable pathways to successful implementation. To 
assist the CCSP in revising the strategic plan, the NRC review makes an 
extensive set of recommendations. These recommendations for revisions 
fall into five categories: (1) clarify the vision and goals of the CCSP 
and the CCRI, (2) improve the treatment of program management, (3) fill 
key information needs, (4) enhance efforts to support decision making, 
and (5) set the stage for implementation. I will comment briefly on 
some of the specific recommendations that address these five points. I 
refer you to the committee's full report for more details.
    The first set of recommendations address revisions to the draft 
strategic plan that would clarify the vision and goals of the Climate 
Change Science Program and its subcomponent, the Climate Change 
Research Initiative. The committee finds that the draft strategic plan 
lacks the kind of clear and consistent guiding framework that would 
enable decision makers, the public, and scientists to clearly 
understand what this research program is intended to accomplish and how 
it will contribute to meeting the nation's needs. In particular, it 
lacks most of the common elements of a strategic plan: a guiding 
vision, executable goals, clear timetables and criteria for measuring 
progress, an assessment of whether existing programs are capable of 
meeting these goals, explicit prioritization, and a management plan. 
The draft plan lists a multitude of proposed activities, but does not 
identify which of these activities are higher priorities than others, 
nor does it provide an explicit process for establishing such 
priorities. A systematic and coherent strategic plan is especially 
necessary when, as in the CCSP, the institutional environment is 
diverse and fragmented and when the program involves new directions and 
collaborations. Such a plan would provide a common basis for planning, 
implementation, and evaluation and would protect against a continuation 
of the status quo. The committee recommends that the revised strategic 
plan articulate a clear, concise vision statement for the program in 
the context of national needs. The vision should be specific, 
ambitious, and apply to the entire Climate Change Science Program. The 
plan should translate this vision into a set of tangible goals, apply 
an explicit process to establish priorities, and include an effective 
management plan.
    The revised strategic plan also must present clear and consistent 
goals for the Climate Change Research Initiative. The draft strategic 
plan states that to be included in the CCRI, a program must produce 
significant decision or policy-relevant deliverables within two to four 
years and contribute significantly to improving scientific 
understanding; optimizing observations, monitoring, and data management 
systems; or developing decision support resources. The committee 
considers the CCRI's emphasis on scientific support for decision makers 
one of the most promising and innovative features of the draft 
strategic plan. Further, the plan appropriately recognizes that there 
are some short-term products that can and should be delivered by the 
program. Unfortunately, the plan's descriptions of decision support as 
a two to four year activity give the false impression that decision 
support is needed only in the near-term. While short-term deliverables 
are possible in this arena, decision support also will be needed as an 
ongoing component of the program. In addition, many of the CCRI 
activities aimed at reducing uncertainty and improving observations are 
not consistent with the CCRI focus on decision support and are not 
likely to produce deliverables within four years. This is not to say 
that these activities are unimportant, but simply that they are not 
consistent with the goals for CCRI as given in the draft plan. The 
committee recommends that the revised strategic plan present clear 
goals for the Climate Change Research Initiative and ensure that its 
activities are consistent with these goals while maintaining the CCRI's 
strong emphasis on support for near-term decisions as an ongoing 
component.
    The revised strategic plan also needs to describe more clearly how 
the research activities included in the Global Change Research Program 
support the decision support needs of the Climate Change Research 
Initiative. Indeed, there should be a ``rolling linkage'' between the 
two programs, with CCRI objectives periodically redefined as a result 
of new scientific input from the GCRP. The committee believes it is 
essential for the Climate Change Science Program to move forward with 
the important new elements of CCRI while preserving crucial parts of 
existing GCRP programs. The committee recommends that the revised plan 
include an explicit mechanism to link Global Change Research Program 
and Climate Change Research Initiative activities.
    The second overarching area for improvement in the draft plan is 
its treatment of program management. The management of an interagency 
program involving 13 agencies, each with a separate mission and a long 
history of independent research on climate and associated global 
changes, is a challenging task. The Global Change Research Program has 
been criticized in the past for being unable to do much beyond 
encouraging multi-agency cooperation and support because it lacked the 
authority to redirect long standing programs and mandates of individual 
agencies. The draft plan takes positive steps towards improved 
interdisciplinary research opportunities. The creation of a cabinet-
level committee with the authority to shift resources among agencies to 
meet the goals of the Climate Change Science Program is an improvement 
over past approaches to managing the GCRP. However, the interagency 
approach to managing the program may not be enough to ensure that 
agencies cooperate toward the common goals of the CCSP because no 
individual is clearly identified in the draft plan as having 
responsibility for managing the program as a whole. The committee 
recommends that the revised strategic plan describe the management 
processes to be used to foster agency cooperation toward common Climate 
Change Science Program goals. In particular, the responsibilities of 
the CCSP leadership and relevant agencies should be clearly outlined.
    The Climate Change Technology Program is an interagency program 
parallel to the CCSP and created to coordinate and develop technologies 
for stabilizing and reducing greenhouse gas levels in the atmosphere. 
The committee is concerned that the existing management and program 
links between the CCSP and the Climate Change Technology Program may 
not be extensive enough to take advantage of the synergies between 
these two programs. The committee recommends that the revised Climate 
Change Science Program strategic plan clearly describe mechanisms for 
coordinating and linking its activities with the technology development 
activities of the Climate Change Technology.
    A third overarching set of recommendations for improving the draft 
strategic plan addresses better filling key information needs. In this 
regard, the Global Change Research Program's research of the last 
decade, which focused on national- to global-scale phenomena, should be 
augmented with research to develop an understanding of regional scale 
variability and change. Such information would be useful to 
international, federal, state, and local decision makers facing 
environmental problems, including drought, flooding, or other climate 
impacts. Insufficient detail is provided in the draft plan about how 
current work on large-scale climate will be adapted and combined with 
information to address regional issues and seasonal-to-interannual 
timeframes. The committee recommends that the revised strategic plan 
more fully describe how models and knowledge that support regional 
decision making will be developed.
    The next decade of research must also support an increase in 
understanding the potential impacts of climate change on human 
societies and ecosystems, and related options for adaptation and 
mitigation. The need for research and applications in these areas 
logically follows from the CCSP's new emphasis on decision support. The 
draft strategic plan's treatment of human dimensions and ecosystems, 
however, has several important gaps. The draft plan lacks research into 
consumption, institutions, and social aspects of technology as causes 
of climate and associated global changes. It does not propose any 
research into the costs and benefits of climate change and related 
response options. And, its treatment of ecosystems needs a more 
cohesive and strategic organizational framework that places a clear 
priority on predicting ecosystem impacts and on providing the 
scientific foundation for possible actions and policy choices. The 
committee recommends that the revised strategic plan strengthen its 
approach to the human, economic, and ecological dimensions of climate 
and associated global changes.
    The draft strategic plan's call for greatly improved observational 
capabilities reflects a well recognized priority for increasing 
understanding of climate and associated global changes. To date, the 
global climate observing system is only a patchwork of observational 
networks maintained by various agencies within the United States and by 
other nations. Careful planning and major investments are needed to 
maintain and expand an integrated climate observing system. A critical 
weakness in the draft plan is that it does not adequately explain how 
existing observation systems will be integrated and expanded. The 
committee recommends that the revised strategic plan better describe a 
strategic program for achieving an integrated observing system for 
detecting and understanding climate variability and change and 
associated global changes on scales from regional to global.
    A fourth opportunity for improvement to the draft strategic plan is 
to strengthen its treatment of decision support. The committee views 
the definition and development of decision support resources as a 
critical short-term goal of the CCSP. Although the draft strategic plan 
has incorporated general language about decision support in many 
places, it is vague about what this will actually mean. Indeed, the 
draft plan does not recognize the full diversity of decision makers and 
does not describe mechanisms for two-way communication with 
stakeholders. The committee recommends that the revised strategic plan 
identify which categories of decision makers the Climate Change Science 
Program serves and describe how the program will improve two-way 
communication with them. The revised plan also should better describe 
how decision support capabilities will be developed and how these 
efforts will link with and inform the program's research to improve 
understanding of climate and associated global changes.
    The draft strategic plan identifies the reduction of uncertainty as 
a top priority for the Climate Change Science Program and its 
subcomponent, the Climate Change Research Initiative. The draft plan 
recognizes three important points about uncertainty: (1) uncertainty is 
inherent in science and decision making and therefore not in itself a 
basis for inaction; (2) decision makers need to be well informed about 
uncertainty so that decisions can be made more knowledgeably; and (3) 
accelerated research should focus on those uncertainties that are 
important for informing policy and decision making. Unfortunately, the 
draft plan does not apply a systematic process to identify the key 
scientific uncertainties and to ascertain which of those are most 
important to decision makers. Thus, the plan's research objectives 
intended to address decision making under uncertainty are not 
necessarily those of optimum use to decision makers. The committee 
recommends that the revised strategic plan identify what sources and 
magnitudes of reductions in key climate change uncertainties are 
especially needed to benefit decision-making.
    A fifth and final overarching area for improving in the draft 
strategic plan is to better set the stage for implementation. The draft 
strategic plan calls for a multitude of research and decision support 
advances. In this regard, the committee believes that the Climate 
Change Science Program faces major challenges in ``capacity building'': 
systematically developing institutional infrastructure; growing new 
multidisciplinary intellectual talent; nurturing ``networking'' of 
diverse perspectives and capabilities; and fostering successful 
transition from research to decision support applications. In addition, 
capacity building is necessary to acquire the computing, communication, 
and information management resources necessary both to conduct the 
extensive climate modeling called for in the draft strategic plan and 
to process and store the large amounts of data collected from a greatly 
expanded observation network. The committee recommends that the revised 
strategic plan explicitly address the major requirements in building 
capacity in human and computing resources necessary to achieve its 
goals.
    It is clear that the scope of activities described in the draft 
strategic plan is greatly enlarged over what has been supported in the 
past through the Global Change Research Program. Implementing this 
expanded suite of activities will require significant investments in 
infrastructure and human resources. This will necessitate either 
greatly increased funding for the Climate Change Science Program or a 
major reprioritization and cutback in existing programs. Even if 
program funding increases, CCSP management will continue to be faced 
with many funding decisions, such as which new programs should be 
initiated (and when), whether any existing programs should be scaled 
back or discontinued, how to balance short-term and longer-term 
commitments, and how to balance support for international and U.S. 
programs. The committee recommends that the Climate Change Science 
Program use the clear goals and program priorities of the revised 
strategic plan and advice from an independent advisory body to guide 
future funding decisions.
    To conclude, the committee finds that the draft plan addresses 
crucial issues facing our nation and the world in the twenty-first 
century. The committee has worked diligently to make this report as 
useful as possible to the Climate Change Science Program. We wish the 
CCSP leadership well as it takes on the challenging task of revising 
the draft strategic plan to enhance the usefulness of the program to 
the decision makers who need to better understand the potential impacts 
of climate change and make choices among possible responses. Thank you 
for this opportunity to address the Committee. We would be pleased to 
answer any questions the Committee might have.

    The Chairman. Would any of the other witnesses like to make 
any additional comments? Dr. Janetos.

 STATEMENT OF DR. ANTHONY C. JANETOS, DIRECTOR, H. JOHN HEINZ 
     III CENTER FOR SCIENCE, ECONOMICS, AND THE ENVIRONMENT

    Dr. Janetos. Good morning, Mr. Senator, thank you for the 
opportunity to testify. I am the vice president of the John 
Heinz III Center for Science, Economics, and the Environment, 
where my functions include directing our center's global change 
program. Prior to joining the Heinz Center, I was a program 
scientist in NASA's Office of Earth Science and had the 
pleasure of serving as co-chair of the U.S. National Assessment 
of the Potential Consequences of Climate Variability and 
Change, and as an author of the IPCC's special report on land 
use change in forestry.
    I would be happy to answer any questions you might have on 
the NRC review of the draft Climate Change Science Program, 
especially on topics of land use and land cover change, 
ecosystems, climate variability and change, the draft plan's 
approach to addressing key climate uncertainties, challenges 
associated with the financial resources available for 
implementation, and the extent to which the plan fosters 
interagency collaboration.
    The Chairman. Thank you. Dr. Liverman.

 STATEMENT OF DR. DIANA M. LIVERMAN, DIRECTOR, LATIN AMERICAN 
             STUDIES PROGRAM, UNIVERSITY OF ARIZONA

    Dr. Liverman. Good morning. I am Diana Liverman. I am 
professor of geography and regional development at the 
University of Arizona, where I also direct the Latin American 
Studies Program, and I work at the Institute for the Study of 
Planet Earth, where we have the Southwest climate assessment 
that specializes in providing climate information to 
stakeholders in the Southwest.
    My research area and the area for which I can answer 
questions in our report looks at the social causes and 
consequences of environmental change, and the international 
dimensions of climate change.
    I am past chair of the National Research Council Committee 
on the Human Dimensions of Global Change, and the Scientific 
Advisory Committee for the Inter-American Institute for Global 
Change Research.
    I appreciate the opportunity to discuss with the Committee 
the draft Climate Change Science Program after our review of 
that document, and the areas that I am especially willing to 
answer questions on are human contributions and responses to 
environmental change, the development of decisions to comport 
resources for climate change stakeholders, opportunities for 
enhancing linkages and communications between researchers and 
stakeholders, and the role of international research and 
cooperation on climate and associated global changes. Thank 
you.
    The Chairman. Thank you. Dr. Solow.

    STATEMENT OF DR. ANDREW SOLOW, ASSOCIATE SCIENTIST AND 
   DIRECTOR, MARINE POLICY CENTER, WOODS HOLE OCEANOGRAPHIC 
                          INSTITUTION

    Dr. Solow. Good morning. Thank you very much for giving me 
this opportunity to testify before the Committee. My name is 
Andrew Solow. I am a scientist and director of the Marine 
Policy Center at the Woods Hole Oceanographic Institution. My 
research interests include environmental and ecological 
statistics.
    I would also be glad to address any questions that the 
Committee may have, in particular those pertaining to the 
plans, treatment of the global climate observing system, grand 
challenges in modeling, observations and information systems, 
the management and review of the program, and the water cycle. 
Thank you very much.
    The Chairman. Well, thank you. I want to thank the 
witnesses and maybe I would like to go back a little bit to the 
basics here so that we can have a framework for our discussion. 
I guess my first question for all the panel is, how serious do 
you think the issue of climate change is, is it reality, and 
how serious is the issue of abrupt climate change? I would like 
to begin with you, Dr. Alley.
    Dr. Alley. I believe that there is a wealth of evidence 
that has been presented in National Academy reports and in 
international documents ultimately under the auspices of the 
United Nations, that indicates that climate change is highly 
likely to continue, that climate change is occurring, that it 
is highly likely that it is occurring at least in part because 
of human influences, and that this presents challenges to 
humans which can be addressed through appropriate responses.
    The Chairman. When do we cross from highly likely to 
certainty?
    Dr. Alley. I, as a scientist, always believe that there is 
something more to learn and if I am absolutely certain, then 
there is nothing more to learn, it is too late for me, so I 
have a faith that there is more out there. So I am never going 
to tell you that I am certain. But we are, our understanding of 
the physical processes on earth says that if you change the 
atmosphere in a particular way, that the world should respond 
by warming on average. The observations indicate that the world 
is warming on average and that we have changed the atmosphere 
in a particular way. And certainly there are many people, many 
National Academy panels that have drawn the conclusion that 
those are related to humans.
    The Chairman. The reason why I ask this question, and I am 
not trying to make you say anything you do not want to say, and 
I have not been involved in this issue for several years, but I 
have learned about the caution of scientists. They are the only 
group of Americans that are more cautious than politicians in 
taking a specific stand on a difficult issue.
    But you see, when you say what you say, Dr. Alley, the 
opponents of acting to try to take some policy measures will 
say see, the scientists are not sure, how can you advocate. 
Because any course of action that we take will require some 
form of sacrifice, in other words, the world cannot continue to 
do business as usual if you accept the fact that global, or 
that climate change is taking place. So whatever actions you 
have to take is going to entail some kind of sacrifice or 
change in the way that we live or do business. Hopefully we can 
minimize that.
    And I am not being baitful of you when I say this, but it 
makes it a little more difficult for me to make my case, to ask 
my colleagues to vote for a cap and trade system on missions 
where they say well, the scientists are not sure yet, so you 
might as well wait before you ask us to regulate the emissions 
from our power plants, make more fuel efficient cars, you know, 
the steps that we all know that may be necessary.
    So please do not take this as a criticism. I guess I am 
venting to you the difficulty that I have because as you know, 
there is significant opposition to any action. And I think that 
one of the reasons why you have made some of the, shall I say 
recommendations, it is hard to clarify the visions and goals 
unless you accept that climate change is taking place. Do you 
agree?
    Dr. Alley. I completely agree. As a scientist who is 
confident that there is uncertainty, I nonetheless get up in 
the morning and I do things, and I do them in the face of that 
uncertainty. And I do many things and I make many decisions 
that I personally have less confidence than I do in the solid 
science behind climate change. So I am acting as an uncertain 
human being because we have to act as uncertain human beings 
because we are never certain.
    The Chairman. Dr. Graedel.
    Dr. Graedel. Thank you. Well, Dr. Alley has made many of 
the points that I think I would make or almost any scientist 
would make on this issue.
    But I think it is significant that the government in 
presenting its plan, has indicated that it wants to go forward 
in a major way because of scientific near unanimity on the 
seriousness of this issue. And in the plan itself, the 
government says that uncertainty is not a reason for inaction. 
So, I believe that the plan itself regards decisions under 
uncertainty as a reasonable way to proceed, and says that the 
things it is doing are decision relevant but not the decisions 
itself, that is, those are the political issues that are not 
part of the science plan, but are supported by the science that 
can be done by such a plan.
    The Chairman. In this plan, what are the specific steps 
that are recommended?
    Dr. Graedel. I think one of the most interesting and 
relevant that has been presented is the emphasis on decision 
support and decision support for people who are actually at the 
level of having to make decisions, and perhaps I could refer 
this point to Dr. Liverman.
    Dr. Liverman. Yes. Our report sees that the focus on 
decision support is one of the most important parts of the 
strategic plan. And one of the things that we have suggested in 
the revision is a little bit more development of what that 
might mean in terms of focusing on decision support, and there 
are a couple of areas where we suggested revisions.
    One is to have research to identify the different source of 
stakeholders that may be making decisions, because there are 
clearly people here in Washington that are making rather 
different decisions or different types of decisions compared 
to, say, a resource manager in our State of Arizona. But the 
fact that this new strategic plan is focusing on science that 
will help those decisions, we think is a very important step 
for the next phase of research in this area.
    We also believe that from a scientific point of view there 
is a wide range of tools that can help with decision support 
and research into those tools for decision support would be an 
important area. And we also know from scientific research that 
there are a wide range of cases that we can examine where 
decisions have been made in the face of uncertainty.
    The Chairman. If you were in charge, Dr. Liverman, would 
you recommend any specific course of action?
    Dr. Liverman. As a scientist, I believe that we need to do 
research to fill some of the gaps in our knowledge and to do 
what we can to clarify our options and to improve our 
knowledge. As a scientist, I am unlikely to be put in charge of 
making the decisions.
    The Chairman. As a scientist, I think you would be put in 
charge of making recommendations. I do not know who else we 
could refer to.
    Dr. Liverman. And what, you would like me to make 
recommendations on--our report focuses on research, not on 
policy, so I am happy to speak about some of the research 
recommendations I would make. As a citizen, I might have 
opinions about policy.
    The Chairman. Dr. Solow, is it true that a significant 
percentage of the ocean reefs are dying, coral reefs are dying?
    Dr. Solow. It is certainly true that a significant 
percentage of coral reefs are, the condition of them is 
deteriorating and some parts of them are dying, that is true.
    The Chairman. And do you attribute this to any, do you have 
any way of accounting for this?
    Dr. Solow. Yes. I think it is generally believed that there 
are multiple sources for that. One of them is warming of the 
sea surface temperatures of the surface of the ocean, but there 
are pollution issues that are also associated with the 
degradation of reefs, and you might well expect there to be an 
interaction between those and other stresses on coral reef 
systems.
    The Chairman. Is it upsetting to you that this is 
happening?
    Dr. Solow. Yes, sure.
    The Chairman. Obviously you have been in this business for 
a long time. Have you ever seen anything like this before?
    Dr. Solow. There are certainly periods, historical periods 
where coral reefs have undergone changes, bleaching, things 
like that. There are coral reefs now in very deep water that at 
one time were in shallow water and were alive and thriving. And 
so, there are changes in coral reef ecosystems and in the 
geology of coral reefs, but I guess the best available signs 
would suggest that what we are seeing is unprecedented.
    The Chairman. And we proceed in this panel, particularly on 
an issue like this, that there is no such thing as a dumb 
question.
    This is the beginning of the food chain, right, in the 
oceans, the reefs?
    Dr. Solow. Well, that is not a dumb question, sir, but I do 
not think that it is correct. I think that there are some parts 
of the ocean where there are coral reef systems and other parts 
of the ocean where there are not. And the parts that have more 
temperate climates, say where I live in Massachusetts, coral 
reef ecosystems are not very important to the food chain in the 
ocean. In other places, the coral reef systems are very 
important.
    The Chairman. Dr. Alley, the Administration's budget 
request for the U.S. Global Climate Research Program is about 
$1.6 billion, which is a decrease of $143 million. The Climate 
Change Research Initiative is $182 million, an increase of $142 
million. Do these request levels support the resources required 
to perform the research as required by this strategic plan?
    Dr. Alley. It depends on how rapidly you would like an 
answer, or reduced uncertainty. Very clearly in a time or 
reduced resources, one must prioritize and one must reduce 
research. So to the extent that you would like to learn a lot 
in a hurry, reduced resources would not get you there as 
efficiently as more resources would.
    The Chairman. Dr. Janetos.
    Dr. Janetos. During the period that we reviewed the draft 
plan, the fiscal 2004 budget request had not yet been released. 
It obviously has been now. I think our committee's concern has 
been that the scope of the draft plan is significantly expanded 
over the scope of the program, the global change research 
program, its immediate predecessor. And we had felt that some 
of the new elements, such as the emphasis on decision support, 
are extraordinarily important. Our main concern is that with 
this increased scope, if that is not matched by resources, then 
the challenge is how will responsible managers, in fact, 
respond, what will they choose to do and what will they choose 
not to do.
    And this is really the genesis of our concern with the lack 
of a clear set of priorities. Until there is a systematic 
approach at actually elaborating and setting out the scientific 
priorities, it is understandable both in the government and 
amongst the community of researchers who will actually do the 
science, it is difficult to know how the program will respond. 
And this is one of the weaknesses that we hope will be 
corrected when we see the next draft of the strategy.
    The Chairman. Review also found that the current plan's 
description of decision support as a two- to 4-year activity, 
gives the false impression that decision support is needed only 
in the near term. What do we need, what mechanisms for long-
term decision support are required? What environmental factors 
should be considered in the long-term research? Whoever feels 
most----
    Dr. Liverman. I will start on that. Decision support is 
certainly needed in the long term, precisely because of some of 
the uncertainties and the possibilities for abrupt climate 
change that Dr. Alley's report looked at. So it seems to the 
committee that yes, we need to invest in decision support in 
the long term, and research on decision support, but this is 
something that needs to be a long-term and very integrated part 
of any long-term research plan that deals with climate and 
global change.
    One other element of decision support is that certainly 
some of the research areas are not likely to produce results in 
the short term, but we already have evidence that work on 
decision support, providing climate information to stakeholders 
can be useful even now if we focus on things like climate 
forecasting, the use of historical climate information, and in 
a sense this is stakeholders' experience in using climate 
information to make decisions while we are waiting for some of 
the improvements in other areas of science.
    The Chairman. Dr. Solow, do you believe that the ice packs 
at the poles are melting?
    Dr. Solow. I think there is excellent evidence that 
glaciers at high latitudes are melting, and I think----
    The Chairman. I think that a visit to Glacier National Park 
would authenticate that, I do not think you need to be a 
scientist to know that.
    Dr. Solow. We can be certain of that, sir.
    The Chairman. Thank God. This is the first thing we are 
certain of.
    [Laughter.]
    Dr. Solow. If you do not mind, I was going to say that the 
answer to that question, while I agree that there is scientific 
uncertainty, I would be willing to bet that human activities 
have changed the climate and that these activities will 
continue to change the climate.
    To get back to your question, there is also evidence of 
some melting at, in polar ice, Greenland, but some of those ice 
caps have extremely long memories and they are still responding 
to changes that occurred in the distant time past, so that is a 
question about which there is much uncertainty, whether we are 
seeing the effects of global warming, say, on melting of 
Antarctic ice, for example.
    The Chairman. If this melting continues, does that have a 
fairly significant effect on places like Bangladesh, the 
Maldives, and these islands and shores and coastlines that have 
very little elevation?
    Dr. Solow. Yes, sir, that is true, if the ice continues to 
melt and the water in the ocean expands as a result of warming, 
that sea level will rise and there are places in the world like 
Bangladesh and some low-lying island Nations where a relatively 
small amount of sea level rise could pose a problem.
    The melting of the ice also in the North Atlantic has a 
connection to the kind of abrupt climate change that Dr. Alley 
has been talking about, so that is also an important 
consideration.
    The Chairman. Dr. Liverman, in the Southwest as you well 
know, there is severe drought conditions. Do you view this as 
part of a cycle that goes on in the Southwest or do you think 
it has more implications than that?
    Dr. Liverman. Well, there have certainly been periods in 
the history of the Southwest where we have experienced droughts 
of the magnitude that we are experiencing at the moment. But 
that is not to say that the drought that we are experiencing is 
inconsistent with some of the projections about what global 
warming might do in the Southwest. To actually separate out 
whether this drought is different from other droughts is a very 
important area of research, but we have had more severe 
droughts in the long-term record in the Southwest.
    However, we have got more people, we have a larger economy 
in the Southwest today, so the question about conditions in the 
Southwest and how we respond to it, I think is a very important 
area of research and decisionmaking, and some of the research 
that is laid out in the strategic plan will help us make 
decisions about those sorts of droughts and future climate 
change in very useful ways.
    The Chairman. Have you reached any tentative conclusions?
    Dr. Liverman. About whether this drought is related to 
global warming? I personally have not, but we have some major 
research activities that would be trying to answer that 
question.
    The Chairman. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I am your soul mate when it 
comes to this subject, as I have been your soul mate on a 
number of other issues.
    The Chairman. I thank you. Sometimes it is a bit lonely.
    Senator Nelson. It is a privilege to be on the right side 
of an issue, as a matter of fact. Most of the folks in Florida 
understand this issue. I am not sure that they intellectualize 
it but when you talk to them about it they have an appreciation 
because of the sensitive situation that if we have global 
warming, the seas will rise, and our population along the coast 
will be in jeopardy.
    We also are a peninsula that I call paradise, that happens 
to stick down into what is known as hurricane highway. And I 
will never forget in the mid-1990's seeing that satellite photo 
of four hurricanes like they were lined up on final approach 
off the coast of Africa coming west, just lined up one right 
after another. And global warming will cause greater intensity 
of storms, the greater disadvantage of pestilence, and for the 
life of me, I cannot understand why we get into these 
disagreements about what we should do.
    In a former role I was the elected insurance commissioner 
of Florida and I tried to get insurance companies to understand 
what this was going to do to their bottom line, and it was me 
talking to that piece of granite over there.
    So we have got quite an educational process to do, Mr. 
Chairman, and I am going to be right with you helping.
    The Chairman. I thank you. And I thank the witnesses for 
being here today. Thank you for your very important 
contribution, and as Senator Nelson just said, we need to try 
to arrive at some consensus on this issue, and perhaps your 
recommendations for the strategic plan will be helpful in 
focusing their attention in arriving at conclusions and 
recommendations as rapidly as possible.
    Do you have any additional comments, Dr. Alley?
    Dr. Alley. Thank you very much.
    The Chairman. Dr. Graedel?
    Dr. Graedel. No, sir, thank you.
    The Chairman. Dr. Janetos?
    Dr. Janetos. No, sir, thank you very much.
    The Chairman. Dr. Liverman?
    Dr. Liverman. No, thank you very much.
    The Chairman. Dr. Solow?
    Dr. Solow. No, thank you, sir.
    The Chairman. I thank you all, and again I want to thank 
you for your significant contributions to this effort. I think 
it is very serious, and we rely upon you for your guidance in 
this very difficult challenge that we face.
    Thank you. This hearing is adjourned.
    [Whereupon, at 10:12 a.m, the hearing was adjourned.]


                            A P P E N D I X

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman.
    I commend you for continuing to hold hearings on climate change. I 
recall that your awareness of this issue as Chairman goes back to the 
106th Congress when you called for hearings, realizing that global 
warming would be an issue that would be with us for many Congresses to 
come.
    There is now a large amount of peer-reviewed scientific literature 
documenting that the burning of fossil fuels, and the subsequent 
release of carbon dioxide, is impacting the environment--and may 
literally be changing the climate through severe weather events, such 
as droughts, record rainfalls, and ice storms. How much of this 
pressing problem we put on the shoulders of future generations is 
clearly up to us. How we respond to these changes, how we mitigate and 
how we adapt to these changes are of utmost importance to our moral 
obligation as to how we leave the planet for the coming generations.
    I congratulate NOAA's Dr. Mahoney on accepting the challenge from 
the President to manage the Administration's newly created Climate 
Change Science Program to educate, and to develop goals and strategies 
to address the uncertainties of climate change science. In a short 
timeframe, The Climate Change Research Program Office, directed by 
Richard Moss, has produced the draft Strategic Plan for the Climate 
Change Science Program and also put together a three day national 
workshop here in Washington last December that was attended by over 
1,300 scientists, economists, and stakeholders from at least 47 states 
and 35 foreign countries to get the public's input and recommendations.
    Before us today we have expert scientists from the National 
Academies who were asked to review the draft Strategic Plan and make 
recommendations for the final Plan due out this spring. Mr. Chairman, I 
would like to welcome Dr. Richard Alley of Penn State University, the 
lead author of the National Resources Council publication, ``Abrupt 
Climate Change: Inevitable Surprises.''
    Abrupt climate change has become a particular interest of mine, 
especially through office discussions with Dr. George Denton of the 
University of Maine's Climate Change Institute, who was recently 
installed as a member of the National Academy of Sciences. The 
Institute is carrying out research on ice cores from Greenland, for 
instance, that are helping them unravel the Earth's past secrets on 
abrupt climate change.
    The NRC Report points out that a growing body of scientific 
evidence suggests that the climate does not respond to change 
gradually, but in sudden jumps. During the last major change in 
climate--as the earth was coming out of the last ice age 12,000 years 
ago--temperatures warmed about 15 degrees Celsius in one decade, even 
though the increased energy from the sun occurred more gradually than 
the current increase in trapped energy from greenhouse gases.
    I am concerned that if such a shift were to happen today, it would 
have immense societal consequences. According to the NRC publication, 
such abrupt changes ``are not only possible but likely in the future.'' 
The publication urged that a new research program be initiated to 
identify the likelihood and potential impact of a sudden change in 
climate in response to global warming. According to the NRC 
publication, ``At present, there is no plan for improving our 
understanding of the issue, no research priorities have been 
identified, and no policy-making body is addressing the many concerns 
raised by the potential for abrupt climate change.''
    Mr. Chairman, as Winston Churchill once said, ``The farther 
backward you can look, the farther forward you are likely to see.'' It 
is for this reason that I have made a request to the FY 2004 
appropriators to establish a National Oceanographic and Atmospheric 
Administration Joint Institute at the University of Maine to carry out 
research in abrupt climate change in collaboration with other 
universities renowned for their contributions to the understanding of 
abrupt climate change, such as Dr. Alley's Penn State, and at Columbia 
University's Lamont-Doherty Earth Observatory.
    I look forward to working with you, Mr. Chairman, and the 
Administration in the very near future for a climate change plan of 
action as I consider this to be an issue of environmental security.
    Thank you Mr. Chairman.
                                 ______
                                 
             Prepared Statement of Hon. Frank Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, I want to thank you for convening today's hearing on 
global climate change and upon the National Academy of Sciences' report 
that was recently released.
    The impact of global warming is affecting our health, our economy 
and our environment. And the damage it brings to our planet will not 
simply go away if we try to ignore its reality.
    We simply cannot ignore thirty years of accumulating science. 
Though some in the Administration would pretend that our world is not 
changing--they do so at the peril of us all.
    The most recent scientific updates on the impacts of climate change 
are nothing short of astonishing.
    In the Arctic, where powerful icebreaking ships were once needed to 
cut through solid ice--ice which stretched on for far as the eye could 
see--today after years of unprecedented melting of the polar ice cap, 
from nearly any point on the permafrost one can see vast openings of 
blue water.
    I traveled to Antarctica a few years ago and saw the effects of 
this firsthand.
    The average thickness of the arctic ice shelf has decreased by a 
staggering 40 percent, just since 1950--according to the latest 
consensus report by the 2000 scientists on the Intergovernmental Panel 
on Climate Change.
    Some of the world's glaciers have lost as much as 70 percent of 
their ice. In a few years we're going to have to rename Glacier 
National Park--and sadly, that's not a joke.
    All this melting ice has to go somewhere, so the sea is steadily 
rising.
    Globally, it's risen between point-one and point-two meters. The 
impact is particularly noticeable along flat coastlines like Texas has 
where the sea level has risen over 8 inches. And this is just a taste 
of what's to come.
    The message is simple--we can't continue to ``study'' global 
climate change. The time has come to act.
    Our great country should be leading the charge against climate 
change: Even many developing countries have begun to address the 
unprecedented rise in carbon dioxide in our atmosphere--and so must we.
    Pretending our planet is not heating up will not make it so.
    We possess the capacity and the ability to confront global warming 
and some of the greatest minds in the world--some of which are here 
with us today. Now is the time to harness what is best in our Country 
to tackle the global problem of climate change.
    We don't have any time to waste--so a strategic plan to address 
climate change is needed.
    But to be truly strategic it must provide a clear roadmap of where 
we need to go, it must provide decision makers with practical 
suggestions for taking the next steps, and it must be complete in its 
scope and effective in the tactical approach it advocates.
    I look forward to hearing from our witnesses today. I know they 
have sound advice to offer on these and other topics.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
 Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. Diana M. Liverman, 
                Dr. Andrew Solow, and Dr. Richard Alley
    Question 1. What are the top two things that you would change about 
the strategic plan?
    Answer. As you know, the National Academies released its formal 
review of the Climate Change Science Program's (CCSP's) draft strategic 
plan in February 2003. Using the recommendations from our committee's 
report and other input from the scientific and stakeholder communities, 
the CCSP extensively revised its draft plan and issued a revised 
strategic plan in July 2003. Our committee completed its second report 
examining the revised plan in February 2004. Because the questions 
posed here followed testimony about the draft strategic plan, these 
responses focus largely on that document rather than the revised plan. 
Our committee's review of the draft plan found that it should be 
substantially revised in five main areas: (1) clarify the vision and 
goals of the CCSP and the CCRI, (2) improve its treatment of program 
management, (3) fill key information needs, (4) enhance efforts to 
support decision making, and (5) set the stage for implementation. Our 
committee's first report included numerous specific recommendations for 
how the draft plan could be improved.

    Dr. Thomas E. Graedel: In my opinion, the two top changes to be 
made to the draft plan are (1) the development of a management plan to 
clearly align the research activities with the goals of the program, 
and (2) the creation of a strong coordination and management strategy 
to link the Climate Change Science Program with the Climate Change 
Technology Program (see also the answer to question 9 below).

    Dr. Anthony C. Janetos: Of the five areas identified by our 
committee, I would highlight the importance of clarifying the vision 
and goals of the CCSP, and setting the stage for implementation. There 
are many scientifically interesting topics that could be investigated 
under the CCSP; but the most important are those for which the research 
contributes the most directly to fulfilling the programs vision and 
goals. Without the vision and goals being very clear and specific, the 
program cannot fulfill its immense promise. In addition, the plan must 
be specific on how implementation is to proceed. Without this level of 
specificity, my concern is that the plan will be intellectually 
interesting, but it will be extremely difficult to tell if it is also 
being effective.

    Dr. Diana M. Liverman: Among the changes identified in our 
committee's first report my personal priorities were to improve and 
define a plan for implementing the research and placing a greater 
emphasis on research related to mitigation and adaptation. An effective 
research program requires an implementation plan that includes 
priorities, budget allocations and measures of success. Research on 
mitigation and adaptation (including issues related to technology, 
consumption, economics, emissions, and vulnerability) is an important 
complement to research that focuses on reducing the biophysical 
uncertainties associated with climate change.

    Dr. Andrew Solow: On the research side, I would strengthen the 
emphasis on understanding the economic impacts of both climate change 
and alternative measures for dealing with it. On the management side, I 
would strengthen overall program management and insist on external 
oversight.

    Question 2. What has been the Administration's response to your 
review?
    Answer. The CCSP has extensively revised its strategic plan and 
this revised plan was reviewed by our committee. The committee found 
that the CCSP had responded constructively to the National Academies 
review and other community input in revising the strategic plan. The 
revised strategic plan is much improved over its November 2002 draft, 
and now includes the elements of a strategic management framework that 
could permit it to effectively guide research on climate and associated 
global changes over the next decades. Although there remain ways in 
which the plan could be improved, the committee found it to be a wholly 
adequate framework and recommended that the activities described in the 
plan be implemented with urgency.

    Question 3. Other than continuing the research efforts, what other 
actions should the government be taking?
    Answer. Our committee was asked to review the CCSP's strategic plan 
for research on climate and associated global change. We emphasize the 
word research because it is important to recognize that the CCSP is a 
research program and not a policymaking body. Therefore, our report did 
not provide recommendations for actions the government should be taking 
to address climate change beyond those needed to improve its capability 
to conduct and manage its research. Even so, the report does offer a 
number of recommendations about how the research program should be 
designed to best support decisions regarding actions to address climate 
change, including:

  <bullet> The committee strongly endorsed the draft plan's new 
        emphasis on the need for science to provide decision support 
        for those in the public and private sectors whose policy 
        decisions are affected by climate change and variability. The 
        committee views the development of decision support resources 
        as the most critical short-term goal of the CCSP.

  <bullet> The committee found that the draft strategic plan lacked 
        research adaptation and mitigation, in particular the role of 
        consumption, institutions, and social aspects of technology as 
        causes of climate and associated global changes.

  <bullet> The draft plan needed to include research into the costs and 
        benefits of climate change and related response options.

  <bullet> The research objectives for ecosystems in the draft 
        strategic plan need a more cohesive and strategic 
        organizational framework that places a clear priority on 
        predicting ecosystem impacts and on providing the scientific 
        foundation for possible actions and policies to minimize 
        deleterious effects and optimize future outcomes.

    The committee found that while the draft strategic plan addressed 
these topics to some extent, its coverage was insufficient to provide 
adequate input into the models and analyses necessary to reduce or 
clarify uncertainties, or to meet current and anticipated needs of 
decision makers.

    Dr. Anthony C. Janetos: The CCSP and CCTI will have the greatest 
impact and utility for supporting decisions if the government can 
clarify what decisions are being contemplated, and which of the many 
possible communities of stakeholders is critical to include. What types 
of adaptation and mitigation decisions are being contemplated, for 
example? Geological sequestration of carbon emissions? Reforestation? 
What about other greenhouse gases? How expensive and widespread are 
adaptation strategies likely to be? What is the level of risk that 
states, landowners, and private businesses are willing to bear? Which 
resources and ecosystems are at the most risk? I do not pretend to be 
able to answer all these questions; it is the role of our committee to 
comment only on the science, not on the policies chosen. But without 
being clear about what type of decisions are being considered, in other 
words, what the policy context is that the science is meant to inform, 
it is difficult to see how the science can be focused effectively.

    Question 4. Your statement refers to the strategic plan as 
recognizing that ``uncertainty is inherent in science and decision 
making and therefore not in itself a basis for inaction.'' How would 
you respond to those who claim that we should not do anything about 
climate change because of the uncertainties about climate science?
    Answer. All important decisions are made under conditions of 
uncertainty. Indeed, uncertainty will never be resolved fully. The 
draft strategic plan agrees with this point of view, stating that ``All 
of science, and all decisionmaking, involves uncertainty. Uncertainty 
need not be a basis for inaction; however, scientific uncertainty 
should be carefully described in CCSP reports as an aid to the public 
and decisionmakers'' (CCSP, 2002, p. 11). At the same time, there are 
many aspects of climate change that are well-understood, and it is 
equally important for scientists to communicate to decision makers the 
degree to which they are certain about findings and predictions.

    Question 5. Your statement has mentioned the need for more research 
on regional climate change. Should another National Assessment be 
conducted?
    Answer. The Global Change Research Act of 1990 calls for periodic 
assessments, including an analysis of the ``effects of global climate 
change on the environment, agriculture, energy production and use, land 
and water resources, transportation, human health and welfare, human 
social systems, and biological diversity.'' According to the Act, such 
assessments are to occur ``not less frequently than every 4 years.'' 
Our committee believes that regional or place-based studies, such as 
the first National Assessment of the Potential Consequences of Climate 
Variability and Change, provide important opportunities to calibrate 
models with specific in situ measurements, evaluate global mechanisms, 
address the tangible impacts of climate change of societies and 
ecosystems, and develop models for providing climate information to 
stakeholders and thus better engage them in the decision-making 
process. The committee did not consider whether another National 
Assessment should be conducted in their discussion of the draft 
strategic plan, but will address this issue in its review of the 
revised plan.

    Dr. Anthony C. Janetos: Another National Assessment should be 
conducted as an integrated study, involving many different 
stakeholders, and with appropriate and extensive scientific and public 
comment, as occurred in the first one. I believe the main challenge to 
be the timing. Sufficient time should pass from the first attempt to 
ensure that there has been enough progress in the underlying science to 
justify another large, national, multi-disciplinary and multi-sectoral 
study. Until sufficient time has passed, and there is a consensus that 
another national study is needed, more focused studies on particularly 
important topics could be a reasonable way forward.

    Dr. Diana M. Liverman: Our committee recommended research on 
regional climate change because regional studies provide important 
information that can help decision makers, resource managers and other 
stakeholders respond to climate change effectively. The National 
Assessment provided an important model for undertaking research at the 
regional level that involves large numbers of stakeholders and 
identified many important issues for further study. Such regional 
syntheses and interactions with stakeholders should be a continuing 
component of the overall program and could focus on particular regions 
and issues, especially on more vulnerable regions and sectors such as 
the Arctic, critical ecosystems, or health, building the basis for 
periodic national and international assessments.

    Question 6. You have recommended a specific link between the U.S. 
Global Change Research Program and the Climate Change Research 
Initiative. The U.S. Global Change Research Program has been around for 
over 10 years and is comprised of over 13 agencies, each with a 
separate mission and a history of independent research. How challenging 
a task is it to coordinate this inter-agency research effort and what 
actions can we take to improve the management process?
    Answer. This task is very challenging. The GCRP has been criticized 
in the past for being unable to do much beyond encouraging multi-agency 
cooperation and support because it lacked the authority to redirect 
long standing programs and mandates of individual agencies. The 
committee concluded that the creation of a cabinet-level committee with 
the authority to shift resources among agencies to meet the goals of 
the CCSP is an improvement over past approaches to managing the GCRP. 
However, the interagency approach to managing the program may not be 
enough to ensure that agencies cooperate toward the common goals of the 
CCSP because no individual is clearly identified in the draft plan as 
having responsibility for managing the program as a whole. The 
committee recommended that the revised plan more clearly describe the 
responsibilities of the CCSP leadership and the management processes to 
be used to foster agency cooperation toward common CCSP goals.

    Question 6a. What is the ``value added'' of the Climate Change 
Research Initiative?
    Answer. The committee concluded that the components introduced by 
the CCRI portion of the draft strategic plan bring an admirable 
emphasis on the need for science to address national needs, including 
support for those in the public and private sectors whose decisions are 
affected by climate change and variability. In addition, the CCRI 
portion of the plan appropriately recognizes that there are some short-
term products that can and should be delivered by the program.

    Dr. Andrew Solow: It seems to me that the program's structure is 
not as critical to its success as the effectiveness of its overall 
management; in many cases, good management can trump bad structure.

    Question 7. Your review found that a revised strategic plan should 
``articulate a clear, concise vision statement'' that should be 
translated into ``tangible goals.'' Based on your experience, what 
should be the ``vision statement'' for the Climate Change Science 
Program and what should be the specific ``tangible goals'' for this 
program?
    Answer. The committee recommended that the CCSP articulate a clear, 
concise vision statement for the program in the context of national 
needs, and suggested that this vision be similar to that presented by 
President Bush in his February 13, 2002 speech announcing the Global 
Climate Initiatives The committee also recommended that the vision be 
specific, ambitious, and apply to the entire CCSP. The plan should 
translate this vision into a set of tangible goals, apply an explicit 
process to establish priorities, and include an effective management 
plan. The committee concluded that the choice of the vision and the 
goals should be made by the program in light of scientific and 
stakeholder needs. The program has developed these elements and 
presented them in the revised strategic plan, which the committee is 
currently evaluating.

    Question 8. Your panel recommended that the Climate Change Science 
Program should establish a standing advisory panel charged with 
independent oversight of the entire program. How should the recommended 
standing advisory committee be designed and what groups should be 
represented on it?
    Answer. The committee believes that the most difficult research 
management challenges will occur at the level of the CCSP program 
itself. Scientific and other stakeholder guidance will be needed for 
the whole program to establish and communicate clear priorities, 
evaluate progress toward meeting the overarching goals, and ensure that 
the inevitable trade-offs in resources and allocation of time are done 
so as to meet the overall program goals. To obtain this guidance, the 
committee recommended that the CCSP establish a standing advisory body 
charged with independent oversight of the entire program. The committee 
did not specify how the advisory group should be designed or what 
groups should be represented on it.
    The revised strategic plan states that ``after careful review, CCSP 
believes that essential program oversight is better provided by the use 
of a number of external advisory mechanisms, including periodic overall 
program reviews by NRC or other groups, rather than a single body. 
Additional mechanisms to seek external scientific input--such as 
workshops, steering committees, ad hoc working groups, and review 
boards--will be employed as needed. CCSP will continue to consider 
creation of a permanent overall advisory group as program 
implementation proceeds.''

    Dr. Thomas E. Graedel: I continue to think that a standing advisory 
committee for the entire CCSP would be valuable, especially if members 
from various stakeholder communities were included. Examples of those 
who might be particularly useful on such a committee would be a staff 
member from a state-level climate change office, and the manager of an 
urban or regional water authority.

    Dr. Anthony C. Janetos: In my opinion, a standing advisory panel 
should have representation from the scientific community, regional 
stakeholders, the government itself, the private sector, and non-
governmental organizations. This broad membership would ensure that the 
standing panel would have access to senior scientific advice, and also 
that its advice would reflect the needs and desires of the potential 
users of that information. The members of the standing panel should not 
be materially dependent on the CCSP for financial support of their own 
research or other activities, in order to ensure that they can give 
truly independent advice. In my own view, the advisory panel should be 
created under its own auspices, and should not be a committee or panel 
of existing bodies.

    Dr. Andrew Solow: In broad terms, there are two sides of this 
program that would benefit from formalized external advice and 
oversight. First, one of the goals of the program is to produce 
scientific research to support decision making. It follows that it is 
important to the program to understand what kind of scientific 
information decision makers need. It therefore makes sense that 
decision makers be represented on the external committee. Second, there 
is also a clear need for advice and oversight from the external 
scientific community on the scientific elements of the research 
program. These two functions are somewhat different: one ensures that 
the right questions are being asked and the other ensures that these 
questions are being addressed correctly. This may suggest that two 
separate committees are needed. However, if that is the case, then 
communication between them (perhaps through some overlap of membership) 
would be important.

    Question 9. What role should international research and previous 
reports, such as those done by the Intergovernmental Panel on Climate 
Change (IPCC), play in the U.S. Climate Change Science Program?
    Answer. The international scientific community recognized climate 
and associated global changes as serious issues over a decade ago, and 
therefore developed a broad suite of research activities that have been 
effectively coordinated by several international research 
organizations, such as the World Climate Research Programme and the 
International Geosphere Biosphere Programme. The committee found that 
the draft plan missed an opportunity to develop a forward-looking 
strategy for improving international research networks and assessments. 
The issue for the CCSP is how to leverage the many governmental and 
nongovernmental organizations to develop capacity and ongoing regional 
networks of international scientists collaborating with U.S. 
scientists. Without a defined strategy it is unlikely that the full 
benefits of such approaches will be achieved.
    The committee also concluded that the draft strategic plan did not 
adequately use many prior assessments and consensus reports that have 
provided scientific information to decision makers. While the draft 
plan did refer to some of these reports with regard to scientific 
issues relating to the physical climate, it failed to build upon past 
experience in applied climate studies, including regional impacts, or 
in interactions with a wide range of user communities. In these facets, 
the committee recommended that the revised plan build on lessons 
learned from the Third Assessment Report of the Intergovernmental Panel 
on Climate Change, the World Meteorological Organization/United Nations 
Environment Programme ozone assessments, and other environmental 
assessments.

    Question 10. Your review stated that the ``existing management and 
program links between the Climate Change Science Program and the 
Climate Change Technology Program may not be extensive enough to take 
advantage of the synergies between these two programs.'' What steps 
should the Climate Change Science Program take to coordinate better 
with the Climate Change Technology Program?
    Answer. Generally, a program to define a massive problem (i.e., the 
CCSP) and a program to develop options for solution to the problem 
(i.e., the CCTP) should be guided by a common strategy, and this did 
not appear to be the case in the draft strategic plan. At the very 
least the results from each program should be used to guide the project 
portfolio of the other. The Interagency Working Group on Climate Change 
Science and Technology is responsible for coordinating the CCSP with 
the CCTP at the highest level, and this group may be able to foster 
some of the synergies described above. The committee believes that more 
potential benefits of these types of synergies would be realized if 
there were also direct coordination of some individual components of 
the CCSP and CCTP. The committee recommended that the CCSP assess the 
scientific implications of the technologies under consideration by the 
CCTP and develop realistic scenarios for climate and associated global 
changes with these technologies in mind. In addition, the program 
management chapter of the revised CCSP strategic plan should clearly 
describe mechanisms for coordinating and linking its activities with 
the technology development activities of the CCTP.
Questions to Dr. Richard Alley
    Question 1. Your report was completed prior to the development of 
the strategic plan. Do you feel the strategic plan adequately addresses 
abrupt climate change issues raised in your report? Are there things 
that you would change?
    Answer. The proper balance between study of nearly-certain gradual 
climate change and possible, difficult-to-predict abrupt climate change 
may be more of a policy question than a scientific one, requiring the 
insights of those who are accustomed to governing in the face of 
uncertainty. The draft strategic plan did highlight areas of research 
that are relevant to abrupt climate change. However, the National 
Academies committee that reviewed the draft plan found that it needed a 
better presentation of the time scales associated with climate change, 
which would point to the value of paleoclimate data as descriptors of 
past natural variability, including past abrupt climate changes. While 
paleoclimate studies were noted in the draft plan, more emphasis on 
them would have been helpful. Just as human history helps a policymaker 
understand what might occur, climate history provides an essential 
context for present studies of forced climate change combined with 
natural variability.

    Question 2. You have mentioned that denying the likelihood or 
downplaying the relevance of past abrupt changes could be costly. Can 
you explain this point?
    Answer. Slow, anticipated changes allow adaptation, greatly 
decreasing costs in comparison to rapid, unanticipated changes. Past 
abrupt climate changes have been very large, and recurrence of such an 
event could have major consequences. Learning whether such recurrence 
is possible, and if so, how likely it is, thus could have value in 
preparing for the future.

    Question 2a. What might be the economic effects if abrupt climate 
change was happening today or within the next twenty years?
    Answer. A recent study on the possible impacts of climate change on 
U.S. agriculture suggested that an unpredicted but large shift in the 
strength and frequency of the El Nino/Southern Oscillation phenomenon 
(such a shift is one of many possible abrupt climate changes) could 
have annual impacts on U.S. agriculture of approximately $1 billion, 
but that useful forecasts could cut such damages by more than half (J. 
Reilly et al., 2003, Climatic Change). The possible damages clearly 
depend on the size, speed, and extent of the assumed climate change, 
but the potential magnitude of the impacts and of the value of improved 
knowledge are clear.

    Question 3. You have mentioned in your statement that the potential 
economic and ecological costs of disease emerging from abrupt climate 
change should be assessed. Can the current situation with SARS (severe 
acute respiratory syndrome) be used as a study case?
    Answer. The National Research Council report Abrupt Climate Change: 
Inevitable Surprises, identifies disease issues associated with climate 
change. I know of no evidence that emergence of SARS was linked to 
climate change directly; however, insofar as SARS appears to be a new 
disease, poses large problems for public-health officials, has already 
had economic impacts and may have much larger impacts, I personally 
believe that much can be learned from the SARS incident that would be 
of value in addressing any new emerging diseases, whether tied to 
climate change or not. The NRC produced a report in 2001 titled Under 
the Weather: Climate, Ecosystems, and Infectious Disease, which 
provides more information on the link between climate change and 
infectious diseases.

    Question 4. Your testimony highlights the importance of abrupt 
climate change on societies. What societies are most at risk today for 
abrupt climate change, and how might they be affected?
    Answer. Comparison of archaeological, historical and paleoclimatic 
records shows cases in which past settlements or civilizations 
``failed'' in association with strong climatic stress, including 
abandonment of sites. Thus, the worst things that can happen are bad 
indeed. Climatic stress is only one of many stresses to which societies 
are subject. ``Healthy'' societies--those with assets including 
vigorous economies and strong political institutions--are better able 
to deal with stresses than are ``unhealthy'' societies, which may aid 
in assessing vulnerability to climate change. In addition, those 
societies that rely heavily on long-lived and relatively immobile 
infrastructure and ecosystems, including traditional hunter-gatherer 
societies, may be especially vulnerable. As noted in the NRC Abrupt 
Climate Change report, however, little research has directly addressed 
this important question.

    Question 5. If abrupt climate change is occurring, what actions 
should be taken to mitigate its effects?
    Answer. Better-foreseen changes are less damaging, so improvement 
in knowledge of what changes are possible, what changes are likely, and 
when changes are likely will reduce damages. Some uncertainty will 
always be attached to projections of abrupt climate changes, so actions 
that increase the resiliency and adaptability of society in the face of 
large, unexpected changes would be valuable. In addition, research into 
``no regrets'' policies is needed to help inform decision makers about 
available options. Some ideas are listed in the Abrupt Climate Change 
report, but actual policy recommendations were beyond the charge of 
that NRC committee that prepared that report.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
 Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. Diana M. Liverman, 
                Dr. Andrew Solow, and Dr. Richard Alley
    Question 1. There has been an ongoing argument in Congress as to 
whether global climate change is actually occurring. I understand the 
task of the November 2002 Strategic Plan for the Climate Change Science 
Program was to map out the scientific uncertainties. But, there are 
many published certainties from the Intergovernmental Panel on Climate 
change (the IPCC), from the National Research Council, and from the 
President's U.S. Climate Action Report-2002, to the United Nations, 
which state that there is a strong degree of certainty that global 
warming is occurring. As renowned scientists, is it your belief that 
the Earth is experiencing climate change over and above that which 
would occur with natural variability because of anthropogenic fossil 
fuel emissions?
    Answer. As is explained in the 2001 National Academies Report 
Climate Change Science, there is wide scientific consensus that climate 
is indeed changing. Greenhouse gases are accumulating in Earth's 
atmosphere as a result of human activities, causing surface air 
temperatures and subsurface ocean temperatures to rise. This conclusion 
is based on instrumental records from land stations and ships, which 
indicate that global mean surface air temperature warmed about 0.4-0.8 
+C (0.7-1.5 +F) during the 20th century. The ocean, which represents 
the largest reservoir of heat in the climate system, has warmed by 
about 0.05 +C (0.09 +F) averaged over the layer extending from the 
surface down to 10,000 feet, since the 1950s. In addition to these 
direct measurements, proxy records--which can be derived from ice 
cores, tree rings, and corals--indicate that today's levels of carbon 
dioxide (CO<INF>2</INF>), a key greenhouse gas, are at their highest 
levels of the last 400,000 years. The proxy records indicated that 
recent warming is anomalous and that the observed change in temperature 
is consistent with our understanding of how Earth responds to 
greenhouse gases present in the atmosphere.

    Dr. Thomas E. Graedel: Yes, I believe that the Earth is 
experiencing climate change over and above that which would occur with 
natural variability because of anthropogenic fossil fuel emissions.

    Dr. Anthony C. Janetos: Yes, I believe that the Earth is 
experiencing climate change over and above that which would occur with 
natural variability because of anthropogenic fossil fuel emissions.

    Dr. Diana M. Liverman: Yes, I believe that the Earth is 
experiencing climate change over and above that which would occur with 
natural variability because of anthropogenic fossil fuel emissions.

    Dr. Andrew Solow: Yes, I believe that the Earth is experiencing 
climate change over and above that which would occur with natural 
variability because of anthropogenic fossil fuel emissions.

    Dr. Richard Alley: Yes, I believe that the Earth is experiencing 
climate change over and above that which would occur with natural 
variability because of anthropogenic fossil fuel emissions.

    Question 2. Do you believe that decision making for climate change 
mitigation and adaptation should occur even in the face of scientific 
uncertainties? Should Congress wait until these uncertainties are 
resolved or should Congress be acting now with measures to decrease the 
emissions of carbon dioxide and other greenhouse gases? I would 
appreciate it if you would answer individually.
    Answer. All important decisions are made under conditions of 
uncertainty. Indeed, uncertainty will never be resolved fully. The 
draft strategic plan agrees with this point of view, stating that ``All 
of science, and all decisionmaking, involves uncertainty. Uncertainty 
need not be a basis for inaction; however, scientific uncertainty 
should be carefully described in CCSP reports as an aid to the public 
and decisionmakers'' (CCSP, 2002, p. 11). At the same time, there are 
many aspects of climate change that are well-understood, and it is 
equally important for scientists to communicate to decision makers the 
degree to which they are certain about findings and predictions.

    Dr. Anthony C. Janetos: It is my own belief that decision making 
must occur, even in the face of uncertainties, and that Congress should 
begin to act. I have two primary reasons for this. One is that all 
decision making, and all decision makers must live with uncertainties, 
even while they attempt to have them reduced. This is true for all 
manner of choices that we make every day. The other is that there are 
some things we do know: the concentration of greenhouse gases is rising 
due to human influence, and is already past the realm of natural 
variability over the past several hundred thousand years. All the 
available, credible science that has been done on the sensitivities of 
natural resources and ecosystems to climate variability and change, and 
on the potential impacts due to reasonable scenarios of change in the 
future, suggest that there are potential consequences that one might 
want to avoid. The main uncertainties are the absolute magnitude of 
climate change and its regional basis, and therefore the absolute 
magnitude, regional location, and timing of potential consequences. 
While these are serious issues, and must be addressed, they should not 
be reason enough to delay beginning to reduce the emissions of 
greenhouse gases with sensible policies.

    Dr. Diana M. Liverman: Yes I do believe that decision making should 
occur in the face of scientific uncertainties because we do not need to 
be certain to act, because effective decisions about many other 
important issues (e.g., economic and health policy) have been made 
under conditions of considerable uncertainty, and because research has 
developed a number of useful tools for making such decisions. My 
personal opinion is that it is possible to make decisions to mitigate 
and adapt to climate change that will reduce the risks of serious 
climate change and can provide side benefits (e.g., by reducing other 
risks such as those of air pollution and natural climate variability, 
by saving consumer energy costs through conservation) to many sectors 
of society.

    Dr. Andrew Solow: I do not believe that Congress should delay 
acting until the scientific uncertainties are resolved. However, by the 
same token, I do not believe that Congress should ignore these 
uncertainties in its decision making.

    Dr. Richard Alley: Change will occur. The existence of abrupt 
climate change ensures that detailed projections of climate change will 
always be somewhat uncertain. Just as one cannot predict exactly when a 
leaning person will flip a canoe on a wave-tossed lake, so it is 
difficult to tell exactly when a threshold will be crossed that alters 
the way the climate behaves. If policymakers had to wait for all 
scientific uncertainty to be resolved before considering appropriate 
policy, they would wait forever.
    Question 3. The Global Change Research Act of 1990, Section 106, 
calls for an assessment to be prepared and submitted to the President 
that analyzes, for instance, the effects of global change on the 
natural environment, agriculture, energy production and use, land and 
water resources, transportation, human health and welfare, human social 
systems, and biological diversity. A national assessment, Climate 
Change Impacts on the United States, of which you were one of the team 
members, was published in 2001, addressing the potential consequences 
of climate variability and change. Do you know why there is no mention 
of this 2001 National Assessment in the draft Strategic Plan, 
especially as was developed by a great number of regional and local 
stakeholders and scientific experts?

    Answer.

    Dr. Anthony C. Janetos: I do not know why the U.S. National 
Assessment of the Potential Impacts of Climate Variability and Change 
was not mentioned in the draft CCSP strategic plan. Our committee 
concluded that the draft strategic plan did not adequately use many 
prior assessments and consensus reports that have provided scientific 
information to decision makers, including the U.S. National Assessment. 
This is especially unfortunate in several respects. One is that the 
National Assessment, through its sectoral and regional studies, 
involved literally thousands of citizens and hundreds of scientists in 
its workshops and many published products. Another is that the national 
reports of the Assessment were the subject of extensive scientific and 
public review, and contrary to some assertions, have not been 
discredited in the scientific community. In fact, the main conclusions 
from the Overview document (appended below) are quite balanced, and 
should continue to provide guidance for future research activities, as 
is also documented in the peer-reviewed literature (Parson, Edward A., 
Robert W. Corell, Eric J. Barron, Virginia Burkett, Dr. Anthony C. 
Janetos, Linda Joyce, Thomas R. Karl, Michael C. MacCracken, Jerry 
Melillo, M. Granger Morgan, David S. Schimel, and Thomas Wilbanks, 
2003. Understanding Climatic Impacts, Vulnerabilities, and Adaptation 
in the United States: Building a Capacity for Assessment. Climatic 
Change 57: 9-42). The CCSP would also do well to learn not only the 
substantive lessons of the results of the National Assessment, but also 
the operational complexities inherent in attempting such a large-scale, 
national effort to engage both scientists and stakeholders in a 
dialogue of national importance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Question to Dr. Richard Alley
    Question 1. In your book, Abrupt Climate Change: Inevitable 
Surprises, you mention that there is no federal plan for improving our 
understanding of abrupt climate change. I would like to know what you 
think of my request to establish a NOAA Joint Institute that will 
involve universities carrying on abrupt climate change research such as 
yours at Penn State and Dr. George Denton's at the University of Maine. 
Should this be a priority of NOAA and the Climate Change Science 
Program?
    Answer. The NRC report Abrupt Climate Change: Inevitable Surprises 
is clear on the need for additional research if we are to understand 
abrupt climate change, and provides many examples illustrating the 
value to society of understanding this topic. I believe that research 
on abrupt climate change is in the national interest. While the NRC 
committee did not address the policy questions of how appropriate 
studies should be conducted within the federal research portfolio, your 
proposed NOAA Joint Institute could address leading research priorities 
identified by the NRC committee.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
 Dr. Thomas E. Graedel, Dr. Anthony C. Janetos, Dr. Diana M. Liverman, 
                Dr. Andrew Solow, and Dr. Richard Alley
CCSP and GCRP Management Structure:
    The National Academy of Sciences' (NAS) review of the Draft 
Strategic Plan expresses concern regarding the management of the 
Climate Change Science Program (CCSP) and its research programs and 
indicates that without centralized coordination at the level of the 
CCSP itself, ``there will be a tendency for the individual needs and 
priorities of the agencies to take precedence over the needs of the 
entire program.'' Congress intended that the GCRP perform this 
coordination function when it passed the GCRA in 1990.
    Question 1. Is another layer of management needed? What changes 
would be needed at the Global Change Research Program?
    Answer. More important than layers of management, is that the 
management structure be clear and effective. The GCRP has been 
criticized in the past for being unable to do much beyond encouraging 
multi-agency cooperation and support because it lacked the authority to 
redirect long standing programs and mandates of individual agencies. 
The new CCSP management structure announced by President Bush in 
February 2002 is designed to address this problem by providing a level 
of accountability and direction that was missing from the GCRP. In 
particular, the cabinet-level Committee on Climate Change Science and 
Technology Integration is responsible for providing ``recommendations 
concerning climate science and technology to the President, and if 
needed, recommend the movement of funding and programs across agency 
boundaries'' (GCRP, 2003, p. 11). An Interagency Working Group on 
Climate Change and Technology, composed of departmental and agency 
representatives at the deputy secretary level, reports to the cabinet-
level committee and is responsible for making recommendations about the 
``funding level and focus'' of the CCSP and the CCTP (CCSP, 2002, p. 
162-163). This new management structure is untested, so it is premature 
to evaluate its effectiveness.

    The committee concluded that the creation of the cabinet-level 
committee with the authority to shift resources among agencies to meet 
the goals of the CCSP (if necessary) is an improvement over past 
approaches to managing the GCRP. However, the interagency approach to 
managing the program at all levels, from the cabinet-level committee to 
the individual program element, may not be enough to ensure that 
agencies cooperate toward the common goals of the CCSP because no 
individual is clearly identified in the draft plan as having 
responsibility for managing the program as a whole. Of particular 
importance are those crosscutting program elements that involve 
multiple agencies. To address these issues, the committee recommended 
that the revised strategic plan clearly describe the responsibilities 
of CCSP leadership and the management processes used to be used to 
foster agency cooperation towards common goals. The committee also 
recommended that the revised plan more clearly outline agency 
responsibilities for implementing the research.

    Question 2. Would you recommend any changes to the Global Change 
Research Act of 1990 to ensure better prioritization and management of 
global change research through the GCRP?
    Answer. The committee did not consider possible changes to the 
Global Change Research Act of 1990. Our recommendations were designed 
to improve the program management and prioritization of global change 
research within the CCSP.
Dressing up Old Initiatives as CCRI:
    In your review of the strategic plan, you evaluated the budget 
proposals for the USGCRP and CCRI. As you are aware, NOAA's FY03 budget 
represented an $18 million ``increase'' under CCRI--not USGCRP--for 
aerosols research, climate modeling, carbon cycle, and observations. 
All these areas were already funded at NOAA under the USGCRP in 
previous years
    Question 1. Of the $18 million ``increase,'' how much is actually 
research that has never been done by NOAA as part of the USGCRP effort?

    Question 1a. Is any of the research absolutely new?

    Question 1b. Isn't this just ``dressing up'' old programs in new 
clothing?

    Answer. The committee did not have enough information about the 
CCSP budget to address these three questions in detail. As a general 
proposition, providing additional resources to an existing program does 
not necessarily mean that no new research is done. Research is a matter 
of accumulating knowledge and there is more knowledge to accumulate on 
most of these issues. At the same time, agencies (not just NOAA) 
sometimes re-label programs in the way suggested by the questions. For 
this reason, strong central management and external program oversight 
are critical to the success of the program.
Climate Change Budget Request:
    According to the latest budget figures within the Climate Change 
Science Program's (CCSP) report Our Changing Planet, the annual budget 
for climate change research has been relatively flat since the 
formation of the Global Change Research Program (GCRP) in 1990.
    Accounting for inflation, this flat funding represents a rather 
substantial real decline in funding for climate change research. 
Meanwhile, the Administration has launched new research initiatives, 
such as the Climate Change Research Initiative (CCRI), and the 
Administrations Draft Strategic Plan identifies a large number of 
research needs, including basic research infrastructure such as climate 
observing systems, climate modeling centers, and data management 
capabilities.
    Question 1. Do you think that the current funding for the Climate 
Change Science Program is sufficient to fulfill the research needs 
identified by the Administration?
    Answer. Because the draft strategic plan does not include details 
about present and projected levels of support for each program element 
and because the Fiscal Year 2004 budget request was not available to 
the committee during its deliberations, the committee had limited 
information to evaluate this question. However, it is clear that the 
scope of activities described in the draft strategic plan is greatly 
enlarged over what has been supported in the past through the GCRP. 
Implementing this expanded suite of activities will require significant 
investments in infrastructure and human resources and therefore will 
necessitate either greatly increased funding for the CCSP or a major 
reprioritization and cutback in existing programs.

    Question 2. Does the draft plan indicate what the Administration 
views as priorities and does the scientific community consider these 
priorities appropriate?
    Answer. The draft plan listed a multitude of proposed activities, 
but did not identify which of these activities are higher priorities 
than others (either across the CCSP as a whole or within individual 
program areas of the CCRI or the GCRP) nor did it provide an explicit 
process for establishing such priorities.
Future National Assessments:
    In 2000, the Global Change Research Program (GCRP) released the 
report Climate Change Impacts on the United States: The Potential 
Consequences of Climate Variability and Change, which is more commonly 
referred to as the U.S. National Assessment. This report represents the 
most current and comprehensive assessment of the implications of 
climate change for the United States, and has been an instrumental tool 
for communicating information on climate change to policy-makers, the 
media, and the general public, and was the source of much of the 
material within the Administration's 2002 Climate Action Report.
    Strangely, in the Administration's Draft Strategic Plan for the 
Climate Change Science Program no mention is made of the U.S. National 
Assessment, nor is there any indication that a similar report will be 
produced in the future.
    Question 1. Given the Administration's statements regarding the 
importance of ``policy-relevant'' research, does the Draft Strategic 
Plan indicate the Administration has given careful thought to the 
performance of outreach to policy-makers and stakeholders through tools 
such as the National Assessment in order to effectively communicate the 
products of CCSP research?

    Answer.

    Dr. Anthony C. Janetos: In my view, the Administration has given 
the topic of outreach to policy-makers and stakeholders considerable 
thought, but there are some surprising gaps. Our committee concluded 
that the draft strategic plan did not adequately use many prior 
assessments and consensus reports that have provided scientific 
information to decision makers. While the draft plan did refer to some 
of these reports with regard to scientific issues relating to the 
physical climate, it failed to build upon past experience in applied 
climate studies, including regional impacts, or in interactions with a 
wide range of user communities. In these facets, the committee 
recommended that the revised plan build on lessons learned from the 
U.S. National Assessment of the Potential Impacts of Climate 
Variability and Change, the Third Assessment Report of the 
Intergovernmental Panel on Climate Change, the World Meteorological 
Organization/United Nations Environment Programme ozone assessments, 
and other environmental assessments. We are supportive of the efforts 
within the CCSP Strategic Plan to devote more effort to decision 
support activities, but these efforts must become both more specific 
and must be supported by the agencies with sufficient funding to ensure 
their success.

    Dr. Diana M. Liverman: In my personal opinion the Draft Strategic 
Plan does give some thought to outreach to policy makers and 
stakeholders but could be considerably improved in this area. Our 
committee recommended that greater emphasis be placed on regional 
research and that the plan should build on lessons learned from the 
National Assessment as well as other activities such as IPCC and 
research programs that have demonstrated how to communicate with 
regional stakeholders (e.g. NOAA RISA, NASA RESAC). We also recommended 
that research into decision making methods and tools should be 
strengthened, building on the broader social science research into 
areas such as decision making under uncertainty and effective 
communication with users. The United States could also learn from other 
climate outreach programs around the world. In my opinion, the UK 
Climate Impacts Programme provides a successful model because of the 
wide range of stakeholders that have been engaged.

    Question 2. Is the Administration likely to prepare any of the 
scientific assessments called for under Section 106 of the Global 
Climate Change Act to assist this Committee and other national 
policymakers by 2004?

    Answer.

    Dr. Anthony C. Janetos: The Global Change Research Act of 1990 
calls for periodic assessments, including an analysis of the ``effects 
of global climate change on the environment, agriculture, energy 
production and use, land and water resources, transportation, human 
health and welfare, human social systems, and biological diversity.'' 
According to the Act, such assessments are to occur ``not less 
frequently than every 4 years.'' The original draft plan did not 
specify how the program would fulfill this mandate. The revised 
strategic plan proposes 21 synthesis and assessment reports to meet the 
requirements of the GCRA. In my personal view, these individual reports 
have the potential to be well-grounded scientifically and be quite 
interesting and well-done. It is not as clear how they are meant to 
provide a more synthetic picture of the potential consequences of 
climate change, both negative or positive.

    Dr. Diana M. Liverman: Because the revised strategic plan proposes 
21 synthesis and assessment reports to meet the requirements of the 
GCRA, it does appear that some assessments are planned. My personal 
opinion is that more research and funding in certain areas may be 
needed to support these assessments, that they should be carefully 
coordinated with international efforts such as IPCC (so as to avoid 
unnecessary duplication, take advantage of relevant studies elsewhere) 
and with the priority areas of the strategic plan, and should involve a 
wide range of stakeholders and scientists beyond the government.

    Question 3. When is the earliest assessment likely to be completed, 
if at all?
    Answer. The revised strategic plan states that 9 of the proposed 21 
synthesis and assessment products intended to meet the requirements of 
the Global Change Research Act of 1990 will be completed within 2 
years. According to the CCSP, the other 12 synthesis and assessment 
products will be completed within 2 to 4 years.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
              Dr. Richard Alley and Dr. Anthony C. Janetos
Administration Response on CO<INF>2</INF> and ``No Regrets'' Policies:
    The Bush Administration sets as its climate mitigation objective an 
18 percent reduction in greenhouse gas intensity over the next 10 
years. However, the Chairman of CEQ testified before this Committee 
that this goal would actually result in a 14 percent net INCREASE in 
U.S. greenhouse gas emissions. This is virtually business-as-usual. In 
addition, the Administration's so-called ``Clear Skies'' plan (i.e., 
the President's Air Pollution Plan) does not even address carbon or 
greenhouse emissions from the utility sector, which is responsible for 
40 percent of U.S. greenhouse gas emissions.
    Last month the Congressionally chartered National Academy of Public 
Administration (NAPA) issued its Congressionally mandated study on the 
Clean Air Act New Source Review program and pollution reductions from 
power plants. NAPA concluded that if Congress takes up legislation on 
power plant pollution they should anticipate upcoming environmental 
challenges and provide future regulatory certainty by including 
emission standards for carbon dioxide. (Recommendation #7, pg. 36).
    Question 1. Given the NAPA recommendation, and the fact that 
electricity production accounts for 40 percent of total national 
CO<INF>2</INF> emissions, does it make sense to include moderate 
CO<INF>2</INF> standards in the Administration's power plant cleanup 
legislation?
    Answer. Setting standards for CO<INF>2</INF> emissions is a matter 
of policy that has not been addressed by the National Academies. Given 
that CO<INF>2</INF> is a greenhouse gas and is produced by electricity 
production, it stands to reason that controls on CO<INF>2</INF> 
emissions will be helpful in meeting emissions reduction goals.

    Question 2. Wouldn't addressing carbon dioxide emissions from 
utilities (which in many states are already subject to state-initiated 
capping programs) fall into the ``No Regrets'' policies referred to in 
the Abrupt Climate Change Report?
    Answer. The Abrupt Climate Change report specifically identifies 
energy policies, including the greenhouse-gas contributions from 
fossil-fuel burning, as an area in which targeted research may lead to 
useful policy recommendations with few or no regrets, in agreement with 
the suggestion in the question. However, the committee that prepared 
this report was not formulated to make policy recommendations and did 
not evaluate this policy specifically.
UNFCCC Goals and Commitments:
    In 1992 the U.S. signed and ratified the UN Framework Convention on 
Climate Change, which set as its goal ``stabilization of greenhouse gas 
concentrations in the atmosphere at a level that would prevent 
dangerous anthropogenic interference with the climate system.''
    And that ``such a level should be achieved within a time frame 
sufficient to allow ecosystems to adapt naturally to climate change . . 
.''
    According to testimony before this Committee in July of last year 
and the U.S. Climate Action Report, U.S. greenhouse gas emission will 
increase by 43 percent between 2000-2020, despite improvements in 
greenhouse gas intensity.

    Question 1. In your scientific opinion, has the U.S. met its goal?
    Answer. Stabilization of greenhouse-gas concentrations in the 
atmosphere has not been achieved. Scientists are still trying to 
determine what level of greenhouse gases in the atmosphere would 
``prevent dangerous anthropogenic interference with the climate 
system.'' At this time, the goal is only qualitative and therefore does 
not lend itself well to a quantitative response. In fact, no single 
threshold level of greenhouse gas concentrations in the atmosphere can 
be defined as the beginning of dangerous interference with the climate 
system. The level at which concentrations pose the danger described in 
the Convention's language is a matter of the climatic consequences of 
those emissions, the sensitivities of the natural resources and 
economies of the affected regions of the globe, and are subject to many 
scientific, economic, and political uncertainties. Some impacts have 
already occurred, and for increasing concentrations there will be 
increasing impacts.

    Question 2. If we continue on our current path--with emissions 
rising every year--when would we achieve this goal? Ever?
    Answer. If greenhouse gas emissions rise every year, stabilizations 
of their atmospheric concentrations will not occur.

    Question 3. Given our failure to reduce global emissions through 
voluntary mechanisms alone, what types of ``no regrets'' mandatory 
policies appear to be the most appropriate for Congressional 
consideration?
    Answer. Neither the NRC Committee to Review the Draft CCSP 
Strategic Plan (of which Dr. Anthony C. Janetos is a member) or the NRC 
Committee on Abrupt Climate Change (of which Richard Alley was chair) 
were charged to consider the relative merits of emissions control 
policies.

    Dr. Anthony C. Janetos: In my personal view, the limitations of 
voluntary mechanisms in achieving such reductions of emissions are well 
known in practice. Mandatory caps on emissions, with substantial 
flexibility in how they are to be achieved in terms of market 
mechanisms, use of sequestration technologies, and spread of more 
efficient end-uses of energy will be necessary. The main challenge will 
be to ensure that such activities do not present overwhelming economic 
burdens to citizens and businesses, and that they are undertaken 
cautiously, so as to allow for future research to inform their 
application. Also in my own view, technological research on climate 
change mitigation actions in all sectors should be a high priority in 
order to ensure that the ingenuity of both our scientific and 
engineering communities is put to best use on this critical issue. 
Especially high priority might be given to those technologies and 
practices with potential payoffs that are sooner rather than later. At 
the same time, research on adaptation practices and the sensitivities 
of key sectors and regions to climate change should be sponsored, so 
that mitigation practices can be most efficiently applied at the least 
possible cost.
    We should not be under any illusion that these solutions can be 
reached quickly. This is one of the most critical, but also one of the 
most difficult environmental issues of our time. We should be prepared 
for a period of adaptive learning and management, so that future 
decisions can be adequately informed by research begun today.

                                  <all>

</pre></body></html>
